<html>
<title> - INNOVATIVE IDEAS TO STRENGTHEN AND EXPAND THE MIDDLE CLASS</title>
<body><pre>[Senate Hearing 113-411]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-411

       INNOVATIVE IDEAS TO STRENGTHEN AND EXPAND THE MIDDLE CLASS

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







            Printed for the use of the Committee on Finance

                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-892-PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)


































                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Wyden, Hon. Ron, a U.S. Senator from Oregon, chairman, Committee 
  on Finance.....................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     4

                               WITNESSES

Swonk, Diane, chief economist and senior managing director, 
  Mesirow Financial, Chicago, IL.................................     7
Packer, George, staff writer, The New Yorker magazine, and author 
  of ``The Unwinding: An Inner History of the New America,'' 
  Brooklyn, NY...................................................    11
Dunkelberg, William C., Ph.D., chief economist, National 
  Federation of Independent Business, Washington, DC.............    14
Lindsey, Lawrence B., Ph.D., president and CEO, The Lindsey 
  Group, Fairfax, VA.............................................    16
Burman, Leonard E., Ph.D., director, Tax Policy Center, The Urban 
  Institute, Washington, DC......................................    19

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Burman, Leonard E., Ph.D.:
    Testimony....................................................    19
    Prepared statement...........................................    45
    Responses to questions from committee members................    60
Dunkelberg, William C., Ph.D.:
    Testimony....................................................    14
    Prepared statement...........................................    67
    Responses to questions from committee members................    71
Hatch, Hon. Orrin G.:
    Opening statement............................................     4
    Prepared statement...........................................    77
Lindsey, Lawrence B., Ph.D.:
    Testimony....................................................    16
    Prepared statement...........................................    80
    Responses to questions from committee members................    92
Packer, George:
    Testimony....................................................    11
    Prepared statement...........................................    95
Swonk, Diane:
    Testimony....................................................     7
    Prepared statement...........................................   100
    Responses to questions from committee members................   107
Wyden, Hon. Ron:
    Opening statement............................................     1
    Prepared statement...........................................   109

 
       INNOVATIVE IDEAS TO STRENGTHEN AND EXPAND THE MIDDLE CLASS

                              ----------                              


                        THURSDAY, MARCH 13, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:09 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Ron 
Wyden (chairman of the committee) presiding.
    Present: Senators Stabenow, Carper, Brown, Bennet, Casey, 
Warner, Hatch, Grassley, and Thune.
    Also present: Democratic Staff: Adam Carasso, Senior Tax 
and Economic Advisor; Joshua Sheinkman, Staff Director; Michael 
Evans, General Counsel; Laura Berntsen, Senior Domestic Policy 
Advisor; and Todd Metcalf, Chief Tax Counsel. Republican Staff: 
Mark Prater, Deputy Staff Director and Chief Tax Counsel; Chris 
Campbell, Staff Director; Jeff Wrase, Chief Economist; Preston 
Rutledge, Tax Counsel; and Jim Lyons, Tax Counsel.

   OPENING STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM 
             OREGON, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The Finance Committee will come to order.
    A century ago, shortly after the Ford Motor Company 
introduced its Model T, Henry Ford shocked the business world 
by increasing his workers' pay to $5 a day. It was more than 
double the going rate, but Ford knew it would guarantee he 
would have the best workforce in Detroit. It also meant his 
employees could afford to buy the cars that they built with 
their own hands. It ensured that they could own homes, send 
their kids to schools, and accumulate wealth.
    It was the birth of the middle class in the United States. 
And in the 100 years since then, that middle class has defined 
the strength of America. Yet today, the middle class is under 
siege. In spite of the work ethic, ingenuity, and productivity 
of millions of Americans, globalization, technological change, 
and flawed tax policies have contributed to a steep decline in 
manufacturing jobs and wages.
    Since 2000, employment in manufacturing has dropped by 
nearly a third, and those same forces are putting pressure on 
service industries. The portion of our economy made up by wages 
and salaries, the lifeblood of the middle class, is now at the 
lowest level on record, leaving many hardworking families 
struggling from paycheck to paycheck. And because consumer 
spending drives 70 percent of the American economy, that is a 
prescription for slower economic growth.
    Today, this committee is going to begin, on a bipartisan 
basis, a drive to develop policies that get more Americans 
inside the 
middle-class winner's circle. And we need to focus on this, 
because the alternative is unacceptable. If working families 
fall further behind now, fewer will be able to climb America's 
ladder of economic mobility and secure better futures for their 
kids.
    As those who fight our wars, educate our children, and hold 
our communities together, the middle class deserves better. I 
believe this committee, working on a bipartisan basis, has the 
ability to produce policies that can help buck those trends, 
build new pathways into the middle class, and expand the 
winner's circle for all.
    And here are just several ideas for getting started. First, 
America has to find fresh policies to improve education and 
lifelong learning and use them as springboards to economic 
opportunity. It is critically important that our students not 
only have access to higher education, but also the ability to 
prosper once they have gotten in the door.
    Senators Warner, Rubio, and I have offered a bipartisan 
proposal that would get up-to-date and accurate information to 
students, allowing them to compare schools and programs based 
on completion rates, debt, employment, and earnings.
    With today's technology, it seems almost unbelievable that 
students are being denied access to that information. And, in 
addition to that step, additional efforts need to be launched 
to improve the rigid structure of Federal aid so that students 
can put that information to good use.
    It has been said that one of the best ways to raise wages 
for the middle class is to have businesses compete for skilled, 
educated workers. Our bipartisan bill helps promote that.
    Any effort to improve education also has to include people 
outside the school system, such as workers who want to learn 
new skills and find unique pathways to new careers. In my home 
State, I often talk with small business owners who want to hire 
carpenters or electricians, but cannot find people with the 
skill sets that are needed. So there is real potential here for 
apprenticeships to help bridge that gap as a pathway to the 
middle class. Our colleague, Senator Cantwell of Washington, 
here on the committee, has done good work on this issue, and I 
look forward to bipartisan efforts to partner with her on that.
    A second boost for the middle class would be finding 
policies that encourage people to save and especially get 
started saving early in life. I have been struck by the 
interest conservatives and liberals have shown in creating 
child savings accounts, and I am interested, again, in working 
with colleagues on both sides of the aisle to explore that.
    What is indisputable is that giving everybody in America 
the opportunity to save and get ahead--and especially those who 
are struggling today--is something that will help sustain and 
expand the middle class.
    Our third focus is going to be retirement security. Too 
often, our families save money for a lifetime only to have it 
wiped away by chronic conditions like diabetes, cancer, and 
heart disease. Millions of Americans of all generations suffer 
from these conditions, and it is not just the government that 
bears the cost.
    I have been pleased to partner with Senator Isakson of 
Georgia, another outstanding member of this committee, to come 
up with a bill that would bring health care providers together 
to keep these chronic care patients as healthy as possible in 
their homes and in our communities.
    Fourth, steps ought to be taken to make the tax code more 
friendly to the middle class and not put up barriers to its 
growth. Right now, a nurse who is married to a police officer 
in Medford, OR could be paying a higher tax rate than someone 
who makes a living entirely off investments. Any tax reform 
plan needs to narrow that gap.
    Over the years, I have had a bipartisan proposal with 
Senator Gregg, Senator Begich, and Senator Coats, and we would 
do just that. And, on a bipartisan basis, we have sought to 
triple the standard deduction to put more money into the 
pockets of our families.
    A bedrock principle for tax reform ought to be to give the 
middle class and everybody else in America the chance to get 
ahead. Right now, despite good intentions, it does not always 
work that way. Take, for example, the child and dependent care 
tax credit. Because of the way that credit is structured, a 
young family just starting out might not get any meaningful 
benefit. Even with a meager level of assistance, child care 
could still be unaffordable, and a parent might have to 
sacrifice a career to stay at home. It is an obvious flaw in 
tax policy that, again, prevents our families from climbing up 
America's economic ladder.
    Our people have proven time and time again that they are an 
almost endless fountain of ingenuity and innovation. American 
ideas and the businesses built on them have transformed the 
world.
    Mr. Packer, who will be here with us shortly, writes about 
Americans like Dean Price and Peter Thiel, who want nothing 
more than to build a business from the ground up and nourish 
its growth. Our tax code should create a pathway for innovators 
and entrepreneurs and not erect barriers to their success. 
Millions of Americans dream of being the next Elon Musk or Mark 
Zuckerberg, and our focus should be on policies that lay the 
groundwork for bringing those dreams closer to reality.
    And too often, tax policies that should encourage 
innovation and entrepreneurship do not deliver. Far too often, 
conversations about tax reform focus on the big businesses, the 
big, successful businesses, and ignore the rest. But economic 
growth and the jobs that follow so often flow from our small 
businesses. So, as this committee continues to consider the 
best ways, again, on a bipartisan basis, to fix this broken tax 
code, let us ensure that young startups and green-shoot 
entrepreneurs have the opportunity to succeed.
    Working taxpayers, I would also point out, face an obvious 
double standard with respect to enforcement of the tax law. It 
is more likely that people working their way out of poverty 
will have their Earned Income Tax Credits reviewed and denied 
than wealthy tax-dodgers will have their tax shelters audited.
    Finally, the government has an obligation to maintain and 
strengthen the social safety net. The promise to hardworking 
Americans ought to be twofold. Just as it helps them climb into 
the middle class when times are good, let us also take steps to 
prevent our people from falling into poverty needlessly when 
times are bad. That means boosting the minimum wage, extending 
unemployment insurance, and updating the workforce programs 
that connect our people with the jobs of the future.
    The safety net needs to be strong and modern in order to 
sustain a thriving middle class. The best way to reinvigorate 
the American economy is with a thriving, educated middle class 
that can find good-paying jobs, afford homes and cars, and be 
able to accumulate wealth over a lifetime. That is the ideal 
Americans have aspired to since, in effect, the middle class 
was born in Detroit a century ago.
    Our challenge is to take the policies I have mentioned--
education, savings, retirement savings, taxes, and a strong 
safety net--and come together as a committee and help retool 
these policies into a stronger economic engine for lasting 
economic prosperity.
    I am going to turn it over to Senator Hatch now. I also 
want to thank our panel. We have a superb panel of witnesses. 
And, Senator Hatch and Senator Grassley, both of whom I have 
had the pleasure of working with often, I look forward to 
pursuing innovative ideas with you on these issues in a 
bipartisan way.
    [The prepared statement of Chairman Wyden appears in the 
appendix.]
    The Chairman. Let me recognize Senator Hatch.

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. I do want to thank 
you for holding today's hearing. I also want to thank our 
witnesses for being here. It is really important that you took 
time out of your busy schedules to be with us and help us to 
understand these issues better.
    Now, this hearing is on ideas to strengthen and expand the 
middle class, and focusing on the middle class is, of course, 
always a safe political landing spot. A host of surveys reveals 
that many Americans see themselves as residing in the so-called 
``middle class,'' including those who, to an outside observer, 
would appear to reside elsewhere.
    That being the case, when politicians say they are working 
for the middle class, there is clearly a large constituency. 
Yet I do not believe that the motivation for today's hearing is 
politics or class warfare, at least I hope that is not the 
case, and I am quite sure it is not, with our distinguished 
chairman. The motivation, I trust, is to explore the evolution 
of middle-income families in America over the past few decades, 
to discuss what can be done to enhance their prosperity in the 
future, and to find ways to allow lower-
income Americans to climb into the middle class or beyond.
    There are two ways to analyze the condition of middle-
income Americans. One way is to cherry-pick economic data that 
conform to the policy or political points that one wants to 
make without checking to see if the position is also supported 
by other evidence. The other way is to analyze data to see if 
they are consistent with one's position and to compare the 
findings with different measurements, datasets, or economic 
models.
    If you are only interested in making a political point, you 
are likely to choose the first option. But if you really want 
to see what is happening with the middle class, the second 
option is the better one.
    I mention this because, in debates concerning things like 
inequality and middle-class incomes, people often tend to 
choose the first option, utilizing only the data that confirms 
their preconceived notions. For example, if you try to measure 
median income using a measure that is pre-tax and pre-transfer, 
and with the tax unit as the unit of measurement, you find 
growth of only around 3 percent between 1979 and 2007, which is 
consistent with the common claims of middle-class stagnation.
    However, if you look at post-tax, post-transfer income data 
that includes valuation of health insurance benefits and take a 
size-
adjusted household as the unit of measurement, you find that, 
over the same period, median income has grown by close to 40 
percent, which is decidedly less stagnant. There are similar 
measurement issues when it comes to data commonly used to 
analyze income inequality.
    Mr. Chairman, I know that I make these observations at 
great risk of being accused of denying stagnation, inequality, 
or any number of struggles facing the middle class. However, 
given what I think is the spirit of this hearing, I believe 
that we should fully examine the issues and measures 
surrounding the middle class, including income growth and 
income inequality. That is the only way we can get to the heart 
of the problems that exist. And we should be addressing these 
problems, and we should be addressing what our priorities 
should be.
    Mr. Chairman, I can point to positive examples very close 
to home. The latest data from Harvard's Equality of Opportunity 
Project ranked Salt Lake City as the number-one city in America 
in terms of upward mobility.
    Keep in mind that, in terms of policy, the vast majority of 
Utahans support a vibrant private sector. We seek lower taxes, 
individual responsibility, and less intrusive government, and 
we take a backseat to no one in terms of caring for the less 
fortunate in our communities. The means by which we care for 
the less fortunate is, by and large, through strong charitable 
institutions. I think Utah's story is instructive on what we 
can do to help grow the middle class.
    Finally, Mr. Chairman, I must say that, while there has 
been a lot of rhetoric in recent years about the middle class, 
I believe that the Obama administration's focus has been 
misplaced and that its policies have actually been hurting the 
middle class. Four and a half years after the end of the 
recession, economic growth remains sluggish, and the labor 
market remains depressed. Yet, in all that time, what has the 
administration been focused on?
    We have seen a massive expansion of our national debt due 
to policies like the failed stimulus. What little deficit 
reduction we have seen has been, by a factor of 9-to-1, due 
more to increased taxes than reductions in spending. And to 
date, the administration is unwilling to do much of anything 
else unless there is yet another tax hike attached.
    We have seen the effort to pass and implement the 
Affordable Care Act, which further increased taxes and health 
care costs for middle-class families and is, according to the 
Congressional Budget Office, having an adverse impact on labor 
market incentives. We have seen a vastly expanded Federal 
bureaucracy through the Dodd-Frank Act, which has failed 
entirely to address known significant contributors to the 
recent financial crisis. And we have seen a regulatory effort 
from the EPA to the Department of Labor to the NLRB that has 
imposed costs on American businesses that will surely be passed 
along to employees and consumers in the middle class.
    I do not see a laser focus on job creation or growing the 
middle class anywhere in these policies.
    Now, Mr. Chairman, if we are serious about helping and 
expanding the middle class, and I think we should be, it needs 
to be more than just a slogan. Sadly, I believe that over the 
last 5 years, the talk about helping the middle class has not 
translated into policies that would actually do the job.
    I look forward to working with you, Mr. Chairman, to 
explore other ideas that will lead to a strong middle class and 
an economy with robust growth in jobs, private investments, and 
prosperity for all American families. And I think you are on 
the right track in raising these issues, but I hope that 
today's hearing will provide us with some insights on how we 
can do better. I appreciate your efforts in having this hearing 
and creating this dialogue and discussion that I think may be 
very beneficial to our country.
    The Chairman. Thank you, Senator Hatch. I thank you for 
your kind words about me. And without making this a bouquet-
tossing contest, let me just say how much I have appreciated 
your leadership on several of the issues that really undergird 
this topic.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. As you know, we have the CHIP bill for our 
kids coming up. That would not have become law if it were not 
for your leadership. And the reality is, every year in America, 
there are millions of visits to community health centers now 
that are not costing taxpayers an additional penny because you 
are willing to work with me on a bipartisan basis to get those 
community health centers out from under needlessly excessive 
liability costs.
    So I thank you for it, and I appreciate having you and 
Senator Grassley and Senator Stabenow here. We have worked 
together in a bipartisan fashion in the past, and we are going 
to do so again.
    We are going to call a little bit of an audible, since Mr. 
Packer is still on the train, and I thought we might begin, if 
we could, with you, Ms. Swonk. You are the chief economist and 
senior managing director of Mesirow Financial, and I think it 
would be ideal if you could, in your testimony, give us a sense 
of the lay of the land, the challenges for middle-class people.
    We have an excellent panel. And why don't we begin with 
you, Ms. Swonk?

 STATEMENT OF DIANE SWONK, CHIEF ECONOMIST AND SENIOR MANAGING 
            DIRECTOR, MESIROW FINANCIAL, CHICAGO, IL

    Ms. Swonk. Thank you so much for having me here, both 
Chairman Wyden and Ranking Member Hatch. I am honored to be 
here with my colleagues, who have incredible expertise behind 
them, and, looking over their testimonies, I am humbled and, 
again, honored.
    I really thought what I could do best and most prudently in 
this hearing is to provide some sense of the direct result of 
the Great Recession and the subpar recovery that followed on 
the middle class, and where I think things are likely to get 
worse before they get better with regard to income inequalities 
and the potential for growth in the United States.
    I will not read any notes I have, because I am dyslexic. So 
I apologize in advance for that. I also flip numbers. So I will 
try not to----
    The Chairman. God has a special place in Heaven for those 
who do not read their statements. [Laughter.]
    Ms. Swonk. There you go. It means that sometimes things 
come out of my mouth that probably should not, as well, but I 
am sure you are all familiar with that too.
    The crisis has revealed and exacerbated income and wealth 
inequalities and set in motion some shifts that I think, if 
unaddressed, are likely to compound the problems and undermine 
potential growth in the U.S. economy.
    We have seen substantial healing in the aggregate in credit 
markets. We have seen things like the debt-to-income ratio get 
down to 2003 levels, which is a great improvement, prior to the 
housing market boom, but still well above the already-elevated 
levels of both the 1980s and 1990s, which were both debt 
decades for the U.S. consumer.
    We have seen debt service burdens and debt financial 
obligation ratios fall to record lows in recent years, although 
I would argue, and the data supports it, that we have seen 
homeowners more than account for all that improvement as they 
have restructured their debt either by force or by choice. And, 
on the flipside of it, renters have seen an increase in their 
financial service burdens. And, as we know, we have seen more 
people move into the rental category in recent years, and I 
think that is going to continue. There are reasons for that, 
but it is something that disturbs me all the same.
    Wealth, net worth, has hit new highs both in absolute and 
nearly relative terms. Of course, that is concentrated, 
depending on what studies you look at, in the top 7 percent of 
households, while the bottom 93 percent are still trying to 
regain ground lost to the Great Recession.
    Now, home values have come back, but not to the previous 
equity we held in our homes prior to the housing market bust; 
not that that is what it should be, but clearly people measure 
themselves on a relative basis.
    Also, median income, as you noted--there are problems with 
the data--has stagnated and declined since 1999 and continues 
to decline. I think there are some real issues in that, 
although I do recognize, Senator Hatch, your important issues 
on data, and I will address those in a minute.
    One of the things that also is very important is that 
income inequalities within the top echelons of income have also 
intensified. And you are seeing in many areas what would be 
considered very high income households actually having to pay 
up and compete with the uber-wealthy in the .01 percent, say, 
and they are finding that their pace of spending has slowed and 
their living standards have been compromised.
    So ``middle-income'' is kind of a relative term. I am 
always amazed at people who think they are middle-income where 
I would look on the numbers charts and say, ``Boy, you are at 
the very top, in the top 5 percent or at least the top 10, if 
not the top 1.'' But it is interesting to see how those 
stresses are distributed.
    I would also argue--and this is one of the more important 
issues--that the stresses that these households are seeing are 
being intensified. Student debt is one of my greatest concerns, 
something I have been noting for many years, the rapid rise in 
student debt. I followed consumer credit markets and the 
banking industry--thank God, I am out of it now--for 19 years, 
and I was in the middle of it, and I watched this happen. And I 
warned people that the best way to die is in debt, and that was 
the incentive, because they died above their means, living 
above their means their whole lives.
    And now we have student debt as the fastest-growing 
component of consumer debt, with default rates at 11.5 percent, 
which grossly understates the defaults. Now, some of this is 
because some of those students--and you noted them earlier, 
Senator Wyden--many of these students should not have gone to 
college or did not know what their earnings potential was.
    They turned around and tried to sue their colleges because 
they could not earn enough to pay for it when they came out. 
Also, a lot of these people maybe should not have been in 
college in the first place, but they were given access. They 
should have been in training programs or in what I consider 
more 18-month training programs with community colleges. Where 
the labor shortages are now, particularly in construction, that 
is a difficult thing to do, because the employers are very 
diverse and cannot pair up with community colleges to create 
the kind of apprenticeship programs that are necessary.
    I also think it is very important--we talk a lot about 
labor force participation. And a lot of people want to discount 
this, but when it comes to our young people, labor force 
participation rates have fallen precipitously, and not just on 
the soft skills among our teenagers. I do worry about my own 
daughter, who is 19 years old and in college right now. She has 
had unpaid positions, which I encouraged her to do, but not 
many paid positions. She thinks she can go out and earn a good 
paycheck. She wants a good job with good hours. I say, get in 
line, there are another 115 million people in the labor force, 
but anyways----
    I think it is important, this decline in labor force 
participation among, not just teens but those into their 20s, 
what I call our learners and our earners, those who are 35 to 
44 years old. We are losing people in that bracket. And guess 
where they are living? They are living at home with their 
parents in multigenerational households. Some research by the 
Pew Research Institute suggests it is the worst situation since 
1940 on multigenerational families living within a household, 
causing economic stresses there, with many people not fully 
employed and grandparents taking care of their grandchildren, 
as well as their adult children.
    Over 31 percent of 18- to 34-year-olds are currently living 
with their parents. Again, the data is a little bit elusive on 
that, because some of those people are just still in college. 
They are not actually living at their parents' home 
continuously, but their parents presumably are having to deal 
with the overhang of that debt.
    The result has been dramatically reduced pools of both 
current and future first-time home buyers and vehicle buyers. 
And why is this so critical? In January, first-time home 
buyers, as existing home sales plummeted, that was not the 
weather in January.
    The important point is that we are seeing that these people 
are diminishing the current pool of first-time buyers, just 26 
percent in January. Forty percent is the norm on the existing 
home market. Without first-time buyers, you do not have trade-
up buyers to trade up. They cannot sell their home to trade up. 
You do not have churn in the housing market, and you also do 
not have the path to saving and wealth that has been long 
considered the American dream. I hate to use the term. It is a 
little trite. But let us face it, we are losing some of the 
pathways that we once saw to generating wealth and saving in 
the United States, which means we are undermining the actual 
backbone of our future and potential growth going forward.
    I will end my comments. I know I speak quickly, but I know 
that I also am longer-winded on time. You give an economist a 
minute, we will take 10, and I am supposed to take 5. I 
apologize.
    But we have seen an extraordinary bifurcation of consumer 
spending in the United States. Initially in the Great 
Recession, nobody escaped. Everybody was hit, and we saw 
consumer spending across income strata and across business 
lines hit all the way across the board, and an extraordinary 
migration down what I call the retail food stream. Now we see 
divisions, the hollowing out of what were previously middle-
market retailers. We are now seeing more and more middle-income 
households searching for value and not allowing any price 
increases.
    One of the most disturbing trends is the pooling at the 
very top. Actually, as I came here yesterday through O'Hare and 
all the delays that were present because it snowed in Chicago--
of course, they do not know how to deal with that there--one of 
the things that came through on my e-mail was a bubble in the 
luxury market, that everybody is trying to feed off of this 
very small percentage and very small number of consumers, and 
they have bid up these prices very high.
    In the rest of the economy, you are not seeing any pricing 
power. And one of the things that I find most striking is sales 
in grocery stores. Today's retail sales data showed we have 
seen some weakening, particularly since some of the food 
subsidies have been lifted as well, but some weakening in 
spending at grocery stores.
    There is a difference between the cost of healthy and 
hungry spending. It strikes me that during the polar vortex, 
which I lived through and you had to live through here, some of 
the biggest worries were about children missing their one meal 
a day that they were going to get in school and, also, those 
people who use school as day care who could not work.
    I believe weather has redistributive effects. But clearly 
those waitresses and waiters and people who are hourly who are 
getting the influx of people migrating rather than hibernating 
from the cold weather to ski resorts and sunny locations are 
not the same people losing it, as those are the people who lost 
it to the weather in this particularly harsh winter.
    But the issue in grocery stores, I think, really does 
highlight this. Dominick's, a mid-market store chain in 
Chicago, went bust. Mariano's, which wants to be the new 
Nordstrom's of the grocery world, is growing right now. I have 
my doubts. Whole Foods has seen increased competition. You are 
going to see a lot more competition at the high end as well. 
And what you are seeing is the lack of pricing power at the low 
end, which is exacerbating the slowdown in inflation, which 
some would say is welcome. But if it becomes deflationary, that 
is a spiral we do not want to get into in any way.
    The Chairman. Ms. Swonk, I am reluctant to stop you, 
because I think not only has this been good, but you are going 
to probably get conscripted to come before a lot of other 
committees, because it has been that good.
    Could you perhaps----
    Ms. Swonk. I have a last sentence, and I will finish it up.
    The Chairman. Great.
    Ms. Swonk. I apologize. I told you, if you give me a 
minute, I do not keep time either. I apologize.
    The Chairman. It has been terrific.
    Ms. Swonk. My greatest concern, as I have outlined, is 
that--well, I will end it on a personal note. My son is 16 
years old, and I live in a highly income-diverse area. He has 
not bought a pair of shoes in 2 years--he is 16 years old--
because his friends, who are in his honors and AP classes, 
cannot afford a pair of shoes, and he will not buy a pair of 
shoes until they can. He has grown 6 inches in those 2 years, 
thankfully, not in his feet. Kind of like puppies growing into 
their feet.
    But I think the narrative of the Hartzell family that we 
are going to hear from Mr. Packer is, unfortunately, going to 
be more the norm than just a narrative going forward. And, if 
we do not get the money to support our statistical agencies, 
you are going to kill the messenger as well.
    The Chairman. That was a really superb way to help us get 
this started, and, particularly, your message is something that 
I think is going to appeal to elected officials of both 
parties, and I appreciate it.
    [The prepared statement of Ms. Swonk appears in the 
appendix.]
    The Chairman. Mr. Packer, if you are not out of breath, 
because I know you have sprinted here, I think it would be very 
helpful to have you follow Ms. Swonk, who has really given us 
an overview of the challenge of Americans trying to climb the 
economic ladder.
    Are you sufficiently situated there and not out of breath? 
Can we go to you next?
    Mr. Packer. Ready to go, Mr. Chairman.
    The Chairman. We look forward to your testimony, and your 
book is spellbinding. And having a spouse in the bookstore 
business, I know a little bit about the challenge of writing 
books, and we commend you, and we are glad you are here.

   STATEMENT OF GEORGE PACKER, STAFF WRITER, THE NEW YORKER 
 MAGAZINE, AND AUTHOR OF ``THE UNWINDING: AN INNER HISTORY OF 
                THE NEW AMERICA,'' BROOKLYN, NY

    Mr. Packer. Thank you, Mr. Chairman. I apologize for being 
late. It was Amtrak's fault, not mine.
    Chairman Wyden, Ranking Member Hatch, and members of the 
committee, I am honored to have been asked to testify before 
the Senate Finance Committee today.
    I am a staff writer at The New Yorker magazine, and last 
year I published a book called ``The Unwinding: An Inner 
History of the New America.'' I conceived it as a 30-year 
history of the political and economic upheavals that have 
transformed America during my adult lifetime.
    I might have added another policy book to the long shelf of 
such tomes or written a conventional work of American history, 
but I did not feel very qualified to do either. I am a 
journalist, and I wanted to write about this generational 
change through the lives and stories of a handful of unknown 
Americans in some of the more forgotten corners of the country. 
So, from 2009 to 2012, I spent a lot of time in the Piedmont 
region of North Carolina, in Youngstown, OH, and in the 
unincorporated subdivisions around Tampa Bay.
    Here is what I learned from some of the people with whom I 
spent many weeks and months. First, everywhere I went, I heard 
again and again there is no more middle class here. There is 
just rich and poor. Even if this was not statistically true, it 
felt true to the people I talked with.
    The disappearance of jobs in manufacturing, small-scale 
agriculture, and construction, depending on where I was, has 
been going on for a long time, since the late 1970s in the case 
of the steel industry in Youngstown. And any long-term trend 
can begin to seem normal and even becomes unnoticeable.
    But the financial crisis and the Great Recession seemed to 
focus people's minds on how far things had gone. I remember 
walking along Main Street in Madison, NC with Dean Price, the 
son of tobacco farmers and a native of the area.
    He had grown up thinking of himself as middle class, but 
just about every store he had known as a kid was closed down. 
And he said, ``If you think about it, the people who ran the 
hardware store, the shoe store, the little restaurant that was 
here, they were the fabric of the community. They were the 
leaders. They were the Little League baseball coaches. They 
were the town council members. They were the people everybody 
looked up to. We lost that.''
    How many Madison, North Carolinas are there around America? 
When you leave the more prosperous areas of the country, it 
becomes almost routine to see deserted Main Streets in town 
after town.
    In Rockingham County, NC, population 93,000, three Walmarts 
opened up in one 6-month period a few years back, with almost 
10 applicants for every position, which paid an average of 
$16,108 a year. Those were just about the only jobs available 
to workers who had once held manufacturing jobs in the textile 
mills and furniture factories before those moved overseas.
    Dean Price told me that with the housing bust, a lot of 
people in his area had to choose between paying the mortgage 
and putting gas in the car to drive ever longer distances to 
ever lower-paid work.
    Again, this is not the exceptional case. It felt closer to 
the norm. It is the economic success stories that we hear about 
so much in the media in Silicon Valley and on Wall Street that 
felt more like the exceptions. As Dean Price said to me, how 
many investment bankers and software designers are there around 
the country? Then think of how many farmers.
    The second thing I kept hearing was that the game is 
rigged. People who were trying to play by the rules found that 
no matter how hard they tried, they could not get out of debt 
or lift themselves out of an impoverished life, while they 
watched more fortunate people with the right educations and 
connections pull away, be granted second or third chances, even 
get away with murder.
    I heard this from people of all races, backgrounds, and 
political views. And, while they had different explanations and 
placed the blame in different ways--some blamed big business, 
some blamed big government, some blamed Wall Street, some 
blamed all of you--this widespread cynicism struck me as a 
dangerous sign about the health of American democracy. The idea 
that hard work and effort can lead to better prospects for 
one's self and one's children is at the heart of the American 
dream. It is one thing to read statistics about income 
inequality and social immobility. It is another to see the 
dream vanishing in the minds of ordinary Americans.
    For example, in Tampa, I met the Hartzell family, Danny and 
Ronale and their young kids, Brent and Danielle. Danny worked 
as a welder, then at a packaging plant, but when those blue 
collar jobs disappeared with the recession, he spent months 
looking for work, with no luck. Then the Hartzells' daughter, 
Danielle, was diagnosed with bone cancer, and the parents put 
all their energy into her treatment and recovery, made possible 
by the charity of local hospitals.
    Finally, Danny got a job stocking produce at Walmart for 
$8.50 an hour, which, because the store had him working part-
time and his hours kept going down, put Danny at about $10,000 
a year. Try supporting a family on that. By the end of the 
month, they had as little as $5 on hand. The only time they had 
extra cash for any purchases beyond the basics was when they 
received their Earned Income Tax Credit.
    And yet, the Hartzells were not doing any of the things 
that poor people are rumored to do. They did not drink or do 
drugs. They obeyed the law. The kids were loving and 
respectful. The family stayed together through everything, even 
three periods of homelessness.
    The parents continued to put their kids, who bounce between 
schools and miss out on their education because of the family's 
instability, ahead of every other consideration. The last time 
I saw the Hartzells, Danny said to me, ``My view on everything? 
If you want to change this country, you have to put a person in 
office who has never done it for a day. Put a regular old guy 
like me, someone who has lived it and never done nothing else 
but live it.''
    I think Danny was saying something like ``the game is 
rigged.''
    The Hartzells have made their share of mistakes, but they 
are the kind of people who used to do okay in America--not 
rich, but okay. There was a place of dignity for them in our 
society.
    Today, without good educations or successful connections or 
other resources, the Hartzells are barely surviving. They feel 
themselves to be disposable, and it is hard to be optimistic 
about their or their children's future.
    Just last week, Ronale Hartzell e-mailed to tell me that 
they have left Tampa, where they have lived most of their 
lives, to try their luck in Orlando. ``We just want a little 
happiness, just a little,'' she wrote. ``We're trying so hard 
since day one.''
    How many people like the Hartzells are there in America?
    I am not the policy expert in this room. You have heard 
from others who are. But I have become a sort of expert on the 
people I wrote about in ``The Unwinding.'' I can tell you that 
the institutions that used to support the aspirations of 
middle-class Americans, from Federal, State, and local 
governments to corporations, banks, public schools, and the 
media, are no longer seen as positive forces in the lives of 
the people I spent time with. These institutions are either 
very distant to the point of irrelevance, or else they are seen 
as negative.
    There is no simple or single solution to this state of 
affairs, but it is real, it is out there, and every day it 
corrodes the sense of fairness and opportunity that is 
essential to our democracy. The people I wrote about do not 
have lobbyists or trade associations or public affairs firms to 
represent their interests here in Washington. The only voice 
they have is yours. For that reason, I hope that the members of 
this committee will put the Americans I have been describing 
and others like them at the center of all of the legislative 
work you do.
    Thank you very much.
    The Chairman. Mr. Packer, thank you very much. And I think 
your testimony is going to help us get that done, get it done 
in a bipartisan way. And I intend to make sure that those kind 
of cases, like Dean Price and the Hartzells, really drive home 
the economic tightrope that these middle-class families are 
walking, where you just point out how they have to make these 
choices between different bills, and any big expense literally 
pushes them off the tightrope altogether.
    [The prepared statement of Mr. Packer appears in the 
appendix.]
    The Chairman. So thank you. And I know you are going to get 
questions from Senators here in a few moments. Particularly, I 
can tell you have a big cold. You faced a late train, and I 
very much appreciate your----
    Mr. Packer. Sorry for the sniffling.
    The Chairman. No. We are glad you are here.
    Dr. Dunkelberg, thank you. Why don't we go to you next? And 
we have very much enjoyed working with you all at the National 
Federation of Independent Business, and we welcome your 
testimony.

  STATEMENT OF WILLIAM C. DUNKELBERG, Ph.D., CHIEF ECONOMIST, 
  NATIONAL FEDERATION OF INDEPENDENT BUSINESS, WASHINGTON, DC

    Dr. Dunkelberg. Thank you, Chairman Wyden, Ranking Member 
Hatch, and members of the committee. I am pleased to be here as 
chief economist for the National Federation of Independent 
Business, the leading representative for small business 
organizations, with over 350,000 members.
    I now have been NFIB's chief economist longer than I have 
been a professor, which is kind of interesting, but I started 
with them back when I was teaching at Stanford University in 
1970. And I retired from teaching a couple of years ago, but I 
am still the chief economist. So I appreciate the fact that you 
recognize the importance of the small business sector to the 
whole issue about the so-called middle class.
    There are an estimated 6 million employer firms in the 
United States, and beyond that, of course, there are tens of 
millions of other people who make a living individually, like 
my electrician, Charlie, who, over the past 20 years, I have 
encouraged from time to time to hire somebody and train them. 
And he says, in response, ``Half of my time would be used up 
complying with the regulations that I have to deal with if I 
hire one worker.'' So he does not hire anyone, and he does not 
train anyone, because of the regulatory burdens that are out 
there.
    Just to give you some perspective, 25 percent of our 
members have annual sales under $200,000. That is gross sales. 
About 70 percent of those sales, on average, go to employee 
compensation. So we are talking about a $50,000-$60,000 bottom 
line here. I think that is definitely middle-class. So, not 
only are the small business owners middle-class people, for the 
most part, they also provide tens of millions of jobs for 
middle-class workers.
    So an estimated, according to the SBA, half of the private 
sector workforce works for what they characterize as a small 
business. So the health of the small business economy is really 
important to what is happening in the middle class.
    If you look at employment today, it is over 1 million below 
where it was back at the peak in January of 2008, and those 
people, I think, were probably not from the top 1 percent or 
even the top one-third. These people were out of the middle 
class and, of course now, are below that, and just getting a 
job would help put them into the middle class again rather than 
being unemployed.
    So every 4 years, the NFIB looks at a random sample of its 
350,000 members and gives them a list of 75 really important 
problems and asks, what are the top problems that your business 
faces; what are the things that are in the way for your growth 
and hiring?
    And I will just share with you the most recent one, which 
we finished late in 2012. No surprise, top of the list is 
health insurance costs, number one--lots of confusion and 
uncertainty there.
    Number two, uncertainty about the economy. That is what 
they told us. They are so unsure about where the economy is 
going to go, they are not going to bet their money, put their 
money on the table, and make the kinds of bets that they have 
to make with their own money. They cannot issue Facebook stock 
and so on. It is their money, and they are going to be very 
careful with it.
    Number three, energy costs.
    Number four, uncertainty about government policy. The Fed, 
the EPA, health care costs, tax policy, all of these kinds of 
things are very concerning to them.
    The next, number five, is the cost of regulation and red 
tape, and we have done a lot about that. Keep in mind that the 
most valuable asset that a small business has is the time of 
the entrepreneur, the person who thought this up and runs it 
and makes it happen and creates the jobs, and all this 
compliance stuff just drains away that most important piece of 
capital. Not a very good thing.
    Six, seven, and eight on the list are: Federal taxes, which 
take away the capital that small businesses use to grow their 
business, frequent changes in the tax code, and tax code 
complexity.
    That is the top eight, and then the remainder of the 75 
things follow that. So you can get an idea about what that list 
must look like, and we would be glad to provide that study to 
you. We have done it for a lot of years now. You can take a 
look. And I appreciate your focus on the whole tax code issue. 
It is very, very important.
    So, as we look at that, as you look at the menu of possible 
things to do--you have suggested many. We certainly would like 
to see things that are more focused instead of comprehensive. 
That is pretty scary. So we like that, like making section 179 
more permanent, because that is bottom-line capital for these 
firms. Things like that would be very helpful.
    Worrying about the banking side, I am the chairman of a 
little bank in New Jersey. We lend to small businesses, and the 
complication coming down in the banking system is making my 
life very difficult. I spend 90 percent of my monthly board 
meeting worrying about complying rather than how to grow the 
bank and the business. That is not helpful.
    These people are very important to providing capital to the 
little firms on Main Street, and I worry about the fact that 
the regulations for these big banks are very important, but to 
apply them to the small banks is probably not a good idea.
    So I think that restoring the vitality to the small 
business sector is very important. If you look at the BLS data 
on new business starts, you will see that, of course, not only 
did we build too many houses in 2003 through 2007, we built too 
many strip malls, too many restaurants, and we lost a lot of 
them. And right now new starts are at a very low level relative 
to where they had been historically.
    That is where jobs come from. A lot of new jobs come from 
just new barber shops, et cetera, that we have to have to help 
3 million new people every year who come into our economy.
    So I think that that is a very good place for us to go, and 
I commend you and the committee for the good work you are going 
to do to help revitalize this source of jobs and middle-class 
consumers.
    Thank you.
    The Chairman. Dr. Dunkelberg, thank you very much. And you 
raise a number of important issues, and, as you know, I have 
followed up on a number of them with you. And I think what is 
particularly relevant is, as we go into tax reform, every time 
you hear people talk about it, it is always about what are the 
C corporations, these big corporations, and, obviously, we want 
them to be competitive. They employ a lot of Americans.
    But as you said, the barber shop, the cleaners, the Main 
Street businesses, somehow get left out because they, in 
effect, pay taxes as individuals, as pass-throughs. And I very 
much want to work with you on that in the days ahead so we do 
not leave these small businesses behind.
    [The prepared statement of Dr. Dunkelberg appears in the 
appendix.]
    The Chairman. Mr. Lindsey, why don't we go to you next?

STATEMENT OF LAWRENCE B. LINDSEY, Ph.D., PRESIDENT AND CEO, THE 
                   LINDSEY GROUP, FAIRFAX, VA

    Dr. Lindsey. Thank you, Mr. Chairman. I would like to thank 
you and Senator Hatch for inviting me today.
    Mr. Chairman, you said that there was a special place in 
Heaven for those who do not read their statements. I need all 
the help I can get to get there, and so I will not read my 
statement.
    The Chairman. Thank you.
    Dr. Lindsey. But I would like to refer to the charts that 
are attached to the statement.
    The Chairman. Absolutely. Absolutely.
    Dr. Lindsey. I am in sympathy with everything I have heard 
today, and I think one of the themes we need to think about in 
terms of the middle class is really a psychological one, which 
is, it is one where self-reliance is key. These are all 
individuals who want to support themselves, and I think that is 
actually why most people think of themselves as middle class.
    They do not think of themselves as part of some over-class 
which sets the rules and runs things. They do not think of 
themselves as an underclass, which is dependent on others. They 
want to be self-reliant.
    With that in mind, let me refer you to chart 1. My theme 
today is going to be something one almost never hears in 
Washington, and certainly never hears or almost never hears 
from a policy wonk, which is a request for modesty. We have 
done a lot, but we are not doing a very good job.
    So the first chart tracks two measures that the Bureau of 
the Census has for tracking inequality. And what I did was, I 
looked at each administration. The data only ran through the 
first 2 years of the current administration. But what you will 
note--by the way, these are called the GINI coefficient and the 
mean log coefficient, which you probably learned about in 
freshman economics, and I hope you have brain cells to put to 
use to remember how they are calculated, and I will not go into 
them today.
    But what you will notice is that both rise under every 
administration, both measures. It does not matter. Neither 
party has done a very good job. In fact, the biggest rise in 
inequality was under President Clinton, where, in those 8 
years, inequality rose under both measures more than it did 
under 8 years of Reagan and 8 years of Bush combined.
    So I think, from a partisan basis, we all have to be very, 
very modest about our ability to influence things. So both 
parties have not done a very good job. But it is not for want 
of trying. And so--if I could ask you to turn to the second 
chart. So what do we do to try to make things more equal? Well, 
one thing we do is we try to make the tax code more 
progressive.
    Now, I know it is not conventional wisdom that the tax code 
has become more progressive, but it has become more 
progressive. And what I did was I looked at IRS data. I also 
looked at Bureau of the Census data.
    I looked at the share of income and the share of income 
taxes paid by the top 5 percent and everyone else in various 
years. And, as you will see, the share of income, according to 
Census, going to the top 5 percent has gone up since 1980, 
between 1980 and 2010. It went from 16.5 percent to 21.7 
percent.
    The share of income taxes paid by that group has gone from 
roughly 37 percent to roughly 60 percent. The point here is 
that the share of income taxes paid at the top has risen faster 
than the share of income at the top. That is mainly because all 
of the big tax cuts we have had have primarily been focused at 
cutting taxes on middle-income families, this in spite of the 
fact that we have this view out there that the middle class is 
shrinking.
    And you can see it in the next two columns. If you compare 
the tax share paid by the top 5 percent to their income share 
versus everyone else, we started at a ratio of about 3-to-1 
back in 1980. This was under Bill Clinton, when the top rate 
was 70 percent. In 2005, the top rate was half that, and the 
ratio of the tax share to income share of the top 5 percent was 
5 times what everyone else was paying.
    So, in fact, in spite of the conventional wisdom, in spite 
of all the rhetoric, the income tax has become more 
progressive. A greater share is paid at the top, and it has 
grown faster at the top than has the income share. This should 
be a cause for modesty that we do all this and it does not have 
the effect we think.
    Chart 3 compares what is happening on the other side, which 
is with transfer payments. And these are government payments to 
individuals, a variety. Right now, they are primarily medical, 
but they also include direct cash income.
    Back in 1960 when, actually, we had the most equal income 
distribution that we have seen in a long time, transfer 
payments were just 6 percent of personal income. Today, they 
are roughly 18 percent of personal income. So the share of 
personal income and transfers has tripled, thanks to the 
efforts of the government, in spite of what we have seen is the 
trend.
    On the other hand, the share of income from interest and 
dividends, what the people call property income, has dropped 
since 1980. So, again, my lesson from this is modesty. It is 
not like we are not doing a lot. We have moved around a full 12 
percent of personal income, which is a lot, $2 trillion, in the 
form of transfer payments, and yet we still have the inequality 
situation we do.
    We should be very modest about our efforts to do things.
    The fourth thing I would like to point out, and the next 
chart, is the decline in middle-age labor force participation. 
This is something Diane mentioned earlier, and I think it is 
very, very important. This is not the people in my generation, 
which I think of as the mature people, wise people with lots to 
contribute. [Laughter.]
    We all actually have higher labor force participation than 
we did at the peak of the last business cycle. This is middle-
aged. They are just leaving the labor force.
    If you compare middle-aged labor force participation today 
versus what it was in 2007, we have lost 2 million middle-aged 
men and 1 million middle-aged women. And by definition, you are 
not going to build the middle class, if you do not have people 
participating in the labor force. It is as simple as that. The 
key is self-reliance. These people are choosing not to be self-
reliant.
    Now, the choice may be that there are not good alternatives 
out there. I am not criticizing these people. They are facing 
the world as it is in front of them. But we are not going to 
solve the problem as long as people leave the workforce, and 
the problem seems to be getting worse. And I was struck by the 
report of the CBO, for example, looking forward to another 2.3 
million people leaving the labor force as the Affordable Care 
Act takes effect.
    I think the reason we failed, in spite of our efforts, is 
complexity, and this was something that Bill Dunkelberg talked 
about. And I would like to turn to chart 5, which was actually 
put out by the Urban Institute.
    I call this the benefits mountain. They looked at a number 
of different people, but this one has to do with a single 
parent with two kids. And you can see how complicated the 
benefit structure is. You cannot say this is a well-targeted 
transfer process. It just is not. And the phase-out ranges are 
different, and the standards for each one are different. And we 
here in Washington--policy wonks, Senators, staff--we have done 
this. This is our fault.
    So, if we were to do anything, I would urge you to look at 
the complexity. And one thing they did at the Urban Institute 
was, they took this and they put it into a summary statistic, 
which is in chart 6, which is the effective marginal tax rate 
on the single parent with two kids. So this is the effect if he 
or she works a little bit more, tries to improve their own 
standard of living, how much of it does the government take 
from them, either in taxes or lost benefits.
    And you will see that, for what most of us would call the 
middle class, say $25,000 to $50,000, we are talking about a 
tax rate over 50 percent. The tax rate is actually 82 percent 
for this single mom with two kids in the $30,000 range. We did 
this, policy wonks, staff, Senators; you did it, we did it.
    We have a higher marginal tax rate on single moms making 
$30,000 a year than President Hollande has put on French 
millionaires. It is dumb French policy, and it is even dumber 
here.
    And so the one thing I would urge us all to do is be very 
modest about our ability to tinker with things, because when we 
tinker, we make the world more complex. And these are people 
who are best-off when the world is simple and they are self-
reliant and are given the means to solve their own problems and 
not told how to do it.
    Thank you.
    The Chairman. Dr. Lindsey, thank you very much.
    [The prepared statement of Dr. Lindsey appears in the 
appendix.]
    The Chairman. And I thought it would be very helpful to 
have you and Dr. Burman, in effect, as bookends at the end, 
because, if we can find common ground between the two of you on 
some of these issues, that will go a long way to coming up with 
a bipartisan tax reform proposal that will give everyone in 
America the chance to get ahead.
    We are going to probably talk about it, but one of the kind 
of key numbers--and I appreciated your using a number of charts 
to document your points, Dr. Lindsey--is in the 2 years after 
Democrats and Ronald Reagan got together in the 1980s, and Dr. 
Burman was involved in it, our country created 6.2 million new 
jobs.
    Now, nobody can say that every one of those jobs was due to 
tax reform, but it sure helped. And it helped particularly give 
all Americans the chance to get ahead. That is the operative 
phrase: all Americans--Dean Price, the Hartzells, everybody in 
America--got the chance to get ahead.
    Dr. Burman, I am not going to put much pressure on you to 
try to find some common ground with Dr. Lindsey and the other 
three outstanding panelists, but you did it in 1986. You also 
helped Senator Coats and Senator Gregg and Senator Begich and I 
write a bipartisan bill. So, no pressure, but let us see what 
we can do to wrap up with some common ground on helping the 
middle class get up that ladder.

  STATEMENT OF LEONARD E. BURMAN, Ph.D., DIRECTOR, TAX POLICY 
          CENTER, THE URBAN INSTITUTE, WASHINGTON, DC

    Dr. Burman. Thank you, Chairman Wyden, and it is a great 
pleasure to be testifying before your committee, at the first 
hearing you are having without Jack Lew. And thank you, Ranking 
Member Hatch, and members of the committee.
    Senator Wyden and Senator Hatch, you have both been my 
heroes, because you have spent so much of your careers trying 
to work on a bipartisan basis, trying to solve important 
issues, and I look forward to seeing what you can accomplish 
together.
    Today, I want to talk about this important issue of what is 
happening to the middle class. There is a chart in my testimony 
showing real median earnings over time, and this is something, 
I think, Senator Hatch referred to earlier. The real median 
earnings, the earnings for somebody right in the middle of the 
distribution of pay, working full-time for a full year, after 
adjusting for inflation, have stayed virtually flat over the 
last 35 years.
    At the same time, productivity has exploded. The amount 
that the average worker is producing has more than doubled. As 
Senator Hatch pointed out, part of the difference is 
attributable to health care costs and other fringe benefits. 
Payroll taxes have gone up over that interval.
    And Senator Hatch also pointed out that, after taxes and 
transfers, we have actually been helping the middle-income 
people more, but the key point is that the market is not really 
rewarding work for people at the middle of the distribution the 
way it used to.
    There are a number of reasons why. Globalization has often 
been targeted. Larry Summers gave a talk at the National Bureau 
of Economic Research last year, and he talked about how the 
traditional economist's view of the economy is that there is 
capital and labor, and capital makes workers more productive, 
which means they get paid more. He said now you need to think 
of a new kind of production function, which is that there is 
the old kind of capital that makes workers productive, but 
there is a new kind of capital that substitutes for some kinds 
of workers.
    Every time you go to the grocery store and you go into the 
self-checkout line and look at the lonely cashier who is the 
only one left there, you are seeing the effect of this kind of 
capital that is not augmenting labor, it is replacing labor.
    One obvious solution is not on the tax side. It is to train 
people so that they cannot be replaced by machines. And, 
Senator Wyden, your bipartisan efforts to make higher education 
more transparent and to actually produce real value for people 
is extremely important.
    President Obama has proposed for the last 2 years to 
encourage community colleges to collaborate with local 
employers to train workers to use high-tech machines in 
manufacturing. That is an enormously promising approach and 
very cost-effective. I think making college, making retraining 
activities affordable for workers and accessible, without 
leaving them with a crushing debt burden, is probably the most 
important thing you can do.
    You talked a little bit about savings. Senator Wyden, you 
have promoted the idea of child savings accounts, which I think 
are a really promising approach.
    In the nature of recycling, I want to remind people of 
something I worked on in the Clinton administration, which was 
universal savings accounts, which involved restructuring the 
subsidies for savings so that low-income people would get an 
automatic contribution, kind of like what they would get from 
their employer if they actually worked in a job that was good 
enough to make a contribution to savings, and then a generous 
match that phased down with income. I think that is also very 
promising.
    Obviously, encouraging savings and education will fit well 
into a bipartisan opportunity agenda. My most innovative 
proposal, and you might say radical, would be to change the way 
we do indexing for the income tax.
    So in the 1980s, we changed the income tax so that rising 
price levels did not push up people's average tax burdens. So 
when the price level goes up by 3 percent, all of the tax 
bracket thresholds, the standard deduction, personal 
exemptions, some other parameters, would increase by 3 percent.
    The idea that I put forward in my testimony is, well, maybe 
what we should do is think about the indexation as something we 
could use to redress inequality at the same time. We would not 
raise the real tax revenues that are collected by the 
government. We would make the same overall adjustment, but we 
could tailor it so that if the middle class continues to be 
falling further behind, we could increase the standard 
deduction by more, increase personal exemptions by more, maybe 
push up the credit rate for the Earned Income Tax Credit.
    If income gains were widely shared, then basically you 
would be doing the same thing as we are doing with price 
indexing now. I think this is a very promising approach. I do 
not think the income tax is the solution to economic 
inequality. I think structural issues, like education, savings, 
things like that, are much more important over the long term.
    But in the short-term, especially as the market economy is 
basically not sharing much of the gains of productivity with 
middle-
income workers, this is something that could help.
    I would be happy to answer your questions. There are a 
number of other issues I talked about in my testimony, but I 
would like to end close to on time.
    The Chairman. Thank you. And all of you, I think, have been 
very helpful in sort of illustrating our challenge.
    [The prepared statement of Dr. Burman appears in the 
appendix.]
    The Chairman. I thought I would start--I know Senator 
Grassley is on a tight time schedule--with a question for all 
of you.
    Let us say, as unimaginable as it is in this town, that we 
will set aside the politics for just a minute. I would be 
interested in having each of you give the committee a fresh 
idea that you would like to see us pursue to try to help 
struggling Americans climb the economic ladder.
    Ms. Swonk, we will start with you. Just give us your sense, 
if you could take one idea that has not just been politicized, 
shoed-over in the battle, the partisan battle, what would you 
pursue?
    Ms. Swonk. Well, mine is just the obvious one that I 
concluded in my own remarks, and that is that we need to have a 
way to restructure out of student debt so that we do not keep 
these generations committed to an overhang of debt and the 
status that goes with that, which means they do not have access 
to other ways of building wealth and saving going forward.
    So an ability to restructure that debt is, I think, one of 
the most critical issues. Some people do make mistakes, and 
they will pay the price for what they did. They should not have 
gotten the credit. It is not forgiveness, but just being able 
to restructure it.
    The Chairman. Dr. Dunkelberg?
    Dr. Dunkelberg. Well, that is a challenge. As an educator 
for most of my life, or all of my adult life I guess, one of 
the things I see is that, as I look at our education system, 
lots of times, we are blaming teachers for not doing a good 
job, and there are certainly a lot of issues around that that 
we all know about.
    But the more fundamental problem that I have observed kind 
of firsthand, working all the way from grade school to college 
level is parenting. And the kids show up not ready to learn, 
not understanding discipline. But I do not have a good policy 
recommendation for dealing with parenting other than that we 
just need to give these young people more guidance with more 
structure so that, when we do get our hands on them in the 
educational system, we can be much more productive in turning 
them into good, solid citizens.
    The Chairman. Dr. Lindsey?
    Dr. Lindsey. I go back to the problem--my generic solution 
is less complexity, because I think complexity moves power up 
to the governing class and moves it away from the middle class.
    A specific recommendation--since I wrote it, I will suggest 
it. I put out a book last year called ``The Growth Experiment 
Revisited.'' I had a very radical tax reform in it which would 
simplify things dramatically, and I would commend that book.
    The Chairman. Giving people back their springtime so that 
they do not have to spend March and April tortured is pretty 
appealing.
    Dr. Lindsey. I just spent the other day with my accountant, 
and I told him what I was doing, and he said that it is now 
impossible for any accountant to do the tax form unassisted.
    Now, I spent my life in taxes. Until 3 years ago, I took 
great pride in being able to do my own taxes. It took several 
days, but I did it. And then I got stuck on one of your new 
rules. I had a foreign account, which I did not want to have, I 
was given it because it was an ESOP, and, oh my God, I could 
not figure out for the life of me how on earth to comply.
    And so he and I sat down, and he said, well, he would try 
three different ways. Finally I decided, all right, enough is 
enough.
    And here is something you can fix, and I promised him I 
would pass it on. On foreign taxes, you, the Congress, and the 
President, have now mandated that we have to fill out yet 
another form if we have a foreign account, and we cannot submit 
it with the rest of our tax forms. It has to be submitted 
separately on June 30th, not on April 15th. Why you did that, I 
do not know.
    So here he is, he is saying, ``You know, I will fill it out 
for you, Larry, and just sign this paper and authorize me to 
fill it out. One problem. You have severe penalties if you 
don't fill out this form, but the IRS hasn't generated the form 
yet.''
    So come on, right, this is complexity that is not being 
followed through on your side, on the part of the government. 
If you are going to make life complex, at least make it doable. 
Complex and impossible is unacceptable.
    The Chairman. Well, Dr. Lindsey, for you and everybody else 
paying attention to today's hearing, I have been chair of the 
committee for about 9 working days. So I have not yet figured--
--
    Dr. Lindsey. And you have not fixed it yet, Senator. 
[Laughter.]
    The Chairman. I have not fixed it, but, by God, we are----
    Senator Hatch. That is no excuse.
    The Chairman [continuing]. We are all going to be on a 
bipartisan mission to do it.
    Dr. Burman, and then, appropriately, wrapping up with Mr. 
Packer.
    Dr. Burman?
    Dr. Burman. Well, I completely agree with Larry that 
complexity is a major issue, and you have actually proposed tax 
reform bills that would make things much simpler.
    Larry is focused on complexity for rich people--like him--
which is a problem, but--just kidding. The tax code is too 
complex for lower- and middle-income working people as well.
    Those marginal tax rates that Larry showed from a study by 
my colleague, Elaine Maag, have to do with the phase-in and 
phase-out of the Earned Income Tax Credit. We do not want to 
lose that, because, yes, EITC is the single-most effective 
anti-poverty program there is. It is an important part of the 
safety net.
    When middle-income people fall on hard times and their 
earnings fall, they can get up to $5,000 in credits to help 
them if their earnings decline. But yet, you see it is 
needlessly complex, and you could make it much, much simpler.
    One idea which I and other people have put forward is just 
turning it into a wage credit that maybe would provide a 
subsidy for the first $10,000 worth of earnings that anyone 
could get, and it could be provided through a payroll tax 
adjustment, if you wanted, and, then, a child credit that just 
depended on having children but did not phase in with income, 
did not phase out.
    Basically, the IRS would have no problem administering that 
child credit, because all they would have to do would be to 
determine that only one person was claiming each child, and, as 
long as no more than one person claimed the child, they would 
be eligible. It would be so much simpler.
    Right now, a majority of low-income people pay people to 
fill out their income tax returns using money they cannot 
afford. We should make things simple enough that people just 
with wage income can fill out their returns themselves.
    The Chairman. But between the two of you, you have now made 
it clear that tax simplification is needed for the low-income, 
the high-income, and everybody in between, and I very much 
appreciate that.
    We will wrap up with Mr. Packer. You have had a chance to 
see sort of Washington in action, and to have you bring it back 
to what you saw as you made your travels, I think, is an 
appropriate way at least for me to wrap up.
    Mr. Packer. So my idea is neither new nor particularly 
modest. It is campaign finance reform. It is giving Dean Price, 
the Hartzells, millions of people like them, a bit more of a 
level playing field here in Washington with the Chamber of 
Commerce and the National Association of Manufacturers.
    I think one reason why we have the incredible level of 
growing inequality that we do, beyond anything you see in 
similar industrialized countries, in Europe, is because we 
accept it. We accept it. And our system of campaign finance is 
one aspect of that acceptance.
    So I would say if you were to begin anywhere, it would be 
in convincing Americans that the game is not rigged by making 
our system of financing campaigns at least a little more equal 
and more fair.
    The Chairman. I would be setting off a truly spirited 
discussion if I got into this. I will tell you, after we are 
done, Senator Murkowski and I have proposed a bipartisan 
proposal to start leveling the playing field.
    Let us go with Senator Grassley, and I very much appreciate 
his involvement in these issues.
    Senator Grassley. Thank you.
    Dr. Lindsey, I am going to start with you. Your testimony 
points to the labor force participation as the greatest 
challenge to increasing the middle class, but, also, to 
reducing income inequality and increasing economic growth.
    You point out that many of our well-intended transfer 
payment programs aimed at helping low-income individuals can 
actually create a strong disincentive to work. Your testimony 
cites marginal effective rates as high as 80 percent. But as I 
understand it, in certain circumstances, that could be 100 
percent.
    During the debate on the Affordable Care Act, I requested 
the Joint Committee on Taxation to do an analysis of marginal 
effective tax rates, looking at all transfer payments, and the 
then-
proposed premium tax credit. The JCT analysis actually said 
that, in certain circumstances, you could have what they said 
was an infinite marginal effective rate.
    Now, before I ask you your question, I kind of add all this 
up, and Congress, over a long period of time, passes a lot of 
well-
intended government programs, and they turn out to have some 
unintended negative consequences. And when we try to do 
something about income inequality, maybe we are spending too 
much time on that and not enough time on inequality of 
opportunity.
    So here is my question. What suggestions do you have to 
ensure Federal programs intended to be a bridge to the middle 
class do not become an insurmountable wall?
    Dr. Lindsey. First of all, let me say, since we are trying 
to build bipartisanship, I agree with everything Dr. Burman 
said. The one thing you heard from us was complexity, and my 
chart here shows this is not the rich right here. And what we 
have done is, we have passed hopelessly, hopelessly complex 
rules so that the individual who wants to comply with the 
government's rules has a strong disincentive to work.
    A lot of the people who are nominally out of the labor 
force may--may, we do not know--be participating in the gray 
economy. We should not be proud of that accomplishment either. 
But there is no question that when you have complex programs 
that ordinary people cannot follow, that punish them with very 
high rates when they try to work harder, you are making things 
worse. You are building a barrier to the middle class.
    I am not saying that we should do away with these programs, 
and I agree with the Earned Income Tax Credit. I think it is a 
great program. I am saying if you put in this hodgepodge, which 
is what you have done, and you have no idea what the marginal 
tax rate is or what the complexity is for that middle-class 
person, that is what the problem is.
    We could sit down and we could simplify this and we could 
agree on a simplified program that would be a win-win for the 
middle class. This is not what the Congress and the President 
have done. They have made it worse. And some of those infinite 
marginal tax rates you referred to come straight from the 
Affordable Care Act.
    We know there are two different phase-outs. We do not have 
to go into that. Why that is there, I have no idea. Did anyone 
not figure it out when you passed the Act--no, I know the 
answer to that.
    You cannot do things like that and expect to have 
government policy be on the side of the middle class.
    Senator Grassley. My next question is for Dr. Dunkelberg. 
Obviously, because of time, it is going to have to be the last 
question, although I do have other questions I may submit in 
writing.
    As you mentioned in your testimony, small businesses are 
vitally important to building jobs for the middle class. So I 
would ask a couple of questions about the Affordable Care Act, 
because I have heard this from small businesses in Iowa.
    Among the top concerns in an NFIB survey is the uncertainty 
over government actions and regulations. How is a haphazard 
implementation of the Affordable Care Act adding to the 
uncertainty facing many small businesses?
    Dr. Dunkelberg. Senator, thank you for that question. It is 
nice to see you again.
    Obviously, there is a huge amount of confusion surrounding 
the Affordable Care Act, and the rules, of course, are 
changing. I do not know how many changes we have had in the 
implementation so far.
    So people are very unsure. Again, these are not Ph.D.s 
running these little firms out here. They are trying to run a 
business, and they are trying to figure out where this thing 
fits in, what taxes apply to them, when will they be penalized, 
will they be penalized, how will that be changed in the future.
    There is a 50-employee thing now, but we know that Congress 
may well make it 40, 30, 20. There is so much uncertainty about 
it that they cannot make hiring decisions.
    Small business owners view hiring as an investment. It is 
not like a 1-year thing. You hire an employee, you train them, 
and the story is, it takes a year to get your investment back 
before they are really productive in the job you have them in.
    So those are investments that owners are very unwilling to 
make now. They are very expensive. Hiring is very expensive, 
and, if you cannot be sure what the cost is going to be or 
whether you can even afford them, you do not make the hire.
    So we are waiting. Everybody is waiting for some more 
clarity before they spend any more money, and that is the 
difficulty we have.
    The Chairman. Thank you, Senator Grassley.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    This has been a particularly interesting panel, and I 
really enjoyed every one of you here. Let me direct some 
questions to Dr. Lindsey, though, and I wish I had time to 
direct to everybody.
    By the way, you mentioned your book. I turned around and I 
said to my staff, ``I've got to get a copy of that,'' and they 
said, ``Well, he sent you a copy, but we kept it so we can read 
it.'' I guess they figured we cannot read. [Laughter.]
    But you may have to send another copy, but I will be happy 
to pay for it. How is that?
    Dr. Lindsey. Senator, I will be happy to send you one, and, 
in honor of your public service, you do not have to pay for it.
    Senator Hatch. Now, that is the kind of language I like to 
hear. [Laughter.]
    Now, Dr. Lindsey, your testimony identifies effective 
marginal tax rates facing low-income earners that can rise to 
as much as 80 percent or more, and your testimony identifies 
that there are elements of our entitlement and transfer systems 
that help impose those rates. One result is that the structure 
of the entitlements and transfers puts in place some 
significant disincentives to work more or advance up into the 
middle class.
    Indeed, I would remind the committee of the nonpartisan 
Congressional Budget Office's recent findings which indicate 
that the construction of the Affordable Care Act, with generous 
subsidies, financed by increased taxes, will discourage 
economic activity, including work and efforts to earn more, 
such as getting more education or training.
    Now, Dr. Lindsey, can you give us some of your thoughts on 
whether high marginal tax rates and disincentives to labor 
supply and other economic activity inherent in many of our 
redistribution and entitlement programs, including the 
Affordable Care Act, are inhibiting economic growth?
    Dr. Lindsey. Yes, Senator. Even though I am about to turn 
60 and old people are not supposed to change their minds, I 
changed my mind about this one.
    I tend to follow the Federal Reserve very closely, and I 
think the labor force participation issue has been a conundrum 
for them. And their view, which I agreed with until December, 
was that the people who have left the labor force are likely to 
come back.
    That had been my view. And then I actually began to do the 
kind of research on an anecdotal basis, and that led me to a 
statistical analysis, and I switched my view. I do not think 
they are coming back.
    Senator Hatch. Why is that?
    Dr. Lindsey. Well, the Hamilton Project, for example, which 
is Mrs. Clinton's outfit, did a very careful look at this. 
Suppose you are a construction worker who has been laid off, 
and you are married to a nurse who has not been laid off. The 
question is, all right, do you want to go back to work?
    Well, what they found was that, in most cases, the 
effective tax rate on the second spouse going back to work was 
on the order of 80 percent because of lost benefits and higher 
taxes. And that goes on top of the fact that you have just 
arranged a certain child care arrangement and now, oh my gosh, 
you have to turn that upside down.
    So I do not think these people are going to come back, and 
that means that we are not going to get the GDP from them, we 
are not going to have the employment, and we are not going to 
have them move into the middle class. They are going to be 
getting by on one income.
    And, if you look at the incentives for them to go back, the 
government has taken them away. I am sorry, but people do not 
go back to work when they lose 80 cents on the dollar of what 
they are going to earn.
    And so, no, I do not think we are going to see a reversal 
in the rate of participation, unfortunately. That is bad for 
the economy, and it is bad for the middle class.
    Senator Hatch. Well, as the economy sluggishly recovers 
from the 2009 recession, labor markets remain persistently 
sluggish, with the employment-to-population rate remaining 
stubbornly low at around 59 percent and the labor force 
participation rate down to 63 percent relative to an average of 
close to 67 percent between 1990 and 2007. Some people argue 
that most of the persistence of the low employment-to-
population numbers and the persistently low and declining labor 
force participation reflects aging of the population.
    Yet, even a recent analysis of the economy's long-run 
growth potential by the nonpartisan Congressional Budget 
Office, which they have ratcheted down, says that, ``Changes in 
people's incentives caused by Federal tax and spending policies 
set in current law are expected to keep hours worked and 
potential output during the next 10 years lower than they would 
be otherwise.'' Now, that is in the CBO's view. The persistent 
sluggishness of the labor market does not stem solely from 
demographics. Policies also have played a role.
    Now, what have you seen and heard about changes in people's 
incentives caused by Federal tax and spending policies since 
the recession that CBO thinks are contributing to and will 
continue to contribute to the sluggishness of the labor markets 
and the economy?
    It is a little along the same line of what you have been 
saying.
    Dr. Lindsey. I think the CBO analysis is right. And yes, 
the population is aging. But one thing that you can do is, you 
can control for age, and my chart in there, chart 4, does that.
    And so what you have had is 2 million middle-aged men and 
1 million middle-aged women not participating. Not 
participating means not only not having a job, but saying, ``I 
don't want to work.'' And, as an old-fashioned guy, I have 
problems thinking about a 45-year-old man saying, ``Not only do 
I not have a job, but I don't want to work.'' And that is what 
got me to look into why that was possible. How could that 
possibly be happening? And the same thing, by the way, is true 
for a lot of middle-aged women. It is now the case that people 
do not want to go out there and work.
    The answer that came up over and over again, came out 
across the political spectrum--I mentioned the Urban Institute, 
I mentioned the Hamilton Project, I mentioned the CBO--so this 
is not a controversial finding. The policies enacted in our tax 
and our transfer system are creating a huge disincentive for 
people to work. It is as simple as that, and that is a burden 
on economic growth.
    Senator Hatch. My time is up, Mr. Chairman.
    The Chairman. Senator Brown?
    Senator Brown. Thank you.
    I guess, Dr. Lindsey, I meet a whole different group of 
people from the people whom you seem to talk to. I want to talk 
about something different.
    Clearly, people on this panel have promoted their books. I 
want to promote Mr. Packer's for a moment, if I could. You have 
written poignantly about the tragic history of Youngstown, what 
has happened in one of the most important cities in my State. 
You trace the life of a woman named Tammy Thomas, a single 
mother, trying her best to raise children.
    Her story and her speaking through your eloquent words made 
two important points. First, manufacturing has been a long-time 
ticket to the middle class, especially between the coasts, but 
really including up and down the east and west coasts too. A 
factory job meant a steady income, a secure retirement, and 
often a pension that was a defined benefit, and some ability to 
send children to school, buy a car, buy a house, all of that.
    Second, when communities lose these jobs, and you know what 
it has done to the Mahoning Valley, Youngstown, it is 
absolutely devastating for that family who may be foreclosed 
on, the family next door whose home is devalued, and the entire 
tax base and all of that.
    So just walk through what we ought to do about that. What 
do you do to encourage and build upon the manufacturing 
renaissance in places like Youngstown, which is beginning to 
happen? How do we reach into these communities and help people 
like Tammy?
    Mr. Packer. In her case, she worked for 20 years in an auto 
parts assembly plant. It was one of the last good manufacturing 
jobs in the Mahoning Valley. And then Delphi declared 
bankruptcy, got out of its contracts, and moved all but a tiny 
number of jobs to Mexico. It was part of a whole North American 
restructuring on the part of Delphi, and that was pretty much 
the end of Tammy's career as a blue-collar worker.
    She remade herself. She went back to school. She got a 
degree in social work. She became a community organizer, which 
is what she was when I met her in Youngstown, and she was 
essentially working with people whom she knew, people in her 
old neighborhoods, to try to rebuild, to get vacant houses torn 
down by the city, basic things, things that seem like--they are 
not about creating a shiny new economy. They are about making 
life livable in neighborhoods that had become pretty much 
unlivable.
    I think one of the biggest challenges in bringing jobs to 
people in the Mahoning Valley is, there is this incredible 
ethic of work in Youngstown because of the history of the steel 
mills. People there know about work. But there is also a 
missing generation that did not have jobs and that probably did 
not get very good educations and that may have spent time in 
prison, which was almost a part of the education of people that 
Tammy knew, including her own brothers. So how do you get the 
jobs in things like natural gas and manufacturing that are 
beginning to trickle back into the old manufacturing parts of 
Ohio to people who do not have a history of working?
    I have seen her stand up in front of a group of ex-cons, 
felons, who were desperate to find a job, but also felt 
hopeless about finding a job because of their record. And so 
she sort of worked with them to figure out how to tell their 
story to a potential employer in a way that they would be given 
a chance, and it is partly a matter of training and of 
education, but it is also a psychological problem.
    There is a huge barrier between people of the next 
generation after hers and the people who are beginning to hire 
in the Mahoning Valley. As of now, what I heard is, a lot of 
those jobs are going to people with very specialized skills or 
people from outside the region who know how to do those jobs. 
So it is not yet becoming a part of the rebuilding of 
Youngstown.
    Senator Brown. Thank you. And I appreciate Dr. Lindsey's 
affirmative head nods as you were talking about much of that.
    Last question, Dr. Burman. I do not have a lot of time.
    You discussed using the tax code to combat wage stagnation. 
Talk to us about the importance of not just the Earned Income 
Tax Credit, but our efforts on this committee. Chairman Wyden 
is a sponsor; pretty much a number of us are.
    It started with President Ford, as you know. President 
Reagan said it was the best pro-family, anti-poverty thing the 
Federal Government can do.
    Talk about the expansion, the permanence, the importance of 
a permanent, predictable EITC--we talk about predictable taxes 
here, but we seem to leave out EITC and CTC as something that 
should be predictable long-term--and the expansion to people, 
to men and women who are childless, and the importance of all 
of that. If you would, just give us your thoughts.
    Dr. Burman. Thank you, Senator. I think the EITC and the 
Child Tax Credit and other subsidies for lower-income working 
people, as Larry pointed out, they are too complicated, but 
they have been enormously valuable.
    The evidence shows that the Earned Income Tax Credit does 
encourage people to work, particularly single parents. It 
raises the reward to work. You can work at the minimum wage, 
and, with the EITC, you can get close to an adequate level of 
income to support your family.
    The President has proposed and Marco Rubio has talked about 
this as bipartisan support for the idea of increasing the 
Earned Income Tax Credit for people without children. Right 
now, there is a tiny, tiny credit that phases out at a very, 
very low income.
    And I think that would be tremendously important, because 
it would encourage, for one thing, noncustodial fathers to go 
into the workforce, to be in the above-ground economy, by 
raising the reward to work, making it easier for them to make 
child support payments and stay connected with their children.
    And education and being in the workforce are important 
avenues into the middle class, and the EITC does encourage 
that. There are some disincentives created by the phase-out, 
but, on balance, the empirical evidence shows that this is a 
very strong pro-work program, and it helps people who are 
really struggling, who are trying to get by and support 
themselves.
    Senator Brown. Thank you. Thank you, Mr. Chairman.
    The Chairman. All of my colleagues have been very patient. 
Senator Brown, I am looking forward to going with you to Ohio 
soon to meet some of those people, and I appreciate it.
    Senator Bennet?
    Senator Bennet. Thank you, Mr. Chairman. And I appreciate 
very much your holding this hearing.
    As we sit here today, we face income inequality that is 
greater than it has been since 1928 in this country. If you are 
a child living in poverty in the United States, your chances of 
getting a college degree or the equivalent of a college degree 
are roughly 9 in 100, which means the situation is getting 
worse and worse and worse, and 91 out of 100 of our kids are 
constrained to the margin of the economy, the margin of the 
democracy, from the very beginning. If we do not change what we 
are doing as a country, the gap is only going to get a lot 
worse.
    Mr. Packer, I want to thank you for this book. It is one of 
the most extraordinary things I have read in a long time. I 
read it without knowing you were coming to the committee. My 
brother made me read it.
    Mr. Packer. Thank you, Senator.
    Senator Bennet. And John Dos Passos, I think, would be 
proud of what you have done here. If people listening to this 
do not read any other part of it, please read the chapters 
about--is it the Hartzell family in Tampa?
    Mr. Packer. Yes.
    Senator Bennet [continuing]. Which is one of the most 
shattering accounts I have ever read of something happening in 
America.
    I wonder whether you could--I just want to give you the 
opportunity to share with the committee some of the things that 
you saw that might be least obvious to the people in Washington 
who are making policy, the chapters about Jeff Connaughton and 
what he learned while he was here on Capitol Hill. Because to 
me, the power of what you recount is the extraordinary 
disconnect that exists among the working Americans you are 
describing and their government, and their sense that the 
priorities here have nothing to do with the priorities that 
they have or the things that would be essential for them to be 
able to get ahead.
    So, I apologize for the long-winded question, but I would 
love to give you the rest of my time.
    Mr. Packer. That is very kind of you, and thanks for your 
really kind remarks, Senator Bennet.
    As I said in my testimony, the people I spent time with, I 
spent a lot of time with. This was not going and doing a half-
hour interview. It was staying in their houses, eating their 
dinners, driving around the State with them. So I got to know 
them really well, and I just got to understand a little bit 
about what it is like to be inside their skin.
    Washington felt very far away and utterly unresponsive, but 
so did Wall Street, so did Silicon Valley, so did corporate 
America, so did my profession, the media--and so did even the 
schools, even the local schools. So there was a sense in which 
they were on their own. Over and over again, I kept running 
into the same feeling that people had that there is no support 
out there, that there is no institutional structure that they 
can turn to that sort of understands what it is like to not 
have a strong voice.
    So you mentioned Jeff Connaughton. The book has all these 
different characters, and one of them is a Washington guy, 
because I think to understand----
    Senator Bennet. He is not a Washington guy anymore.
    Mr. Packer. No. He has burned those bridges completely. He 
has done the unthinkable. He has actually named names and told 
tales, and now he is in some kind of retirement at the age of, 
what, 53. He is one of those middle-aged men who has left the 
labor force voluntarily.
    His story is the story of a guy who goes from being a 
Senate aide to a White House aide to a lobbyist. And of those 
three, the thing that makes him happiest is being a lobbyist, 
because he knows more about what is happening to legislation, 
and he is making more money, and he is more successful. He is 
someone who is doing things. And then comes the financial 
crisis, and there is a sort of moral crisis that comes for him, 
which is perhaps advanced by the fact that he loses half his 
net worth.
    He goes back into government. Some of you may have known 
him when he was Chief of Staff to Senator Kaufman. And his 
mission is to make sure that the financial crisis is never 
repeated, by enacting strong Wall Street reform and by 
prosecuting some of the top executives who might have been 
behind the fraud that led to the financial crisis.
    In his view, neither of those things happens. And the 
reason they do not happen is because of people like him. He 
sees how little voice ordinary people have in Washington when 
he goes from one side of the revolving door to the other in a 
hurry, and suddenly it becomes clear to him that the position 
he was in and that his partners from the firm are still in, is 
a much better position to be in in Washington than to be a 
Capitol Hill aide who thinks he is acting in the interest of, 
broadly speaking, the public, where he feels he has very little 
power.
    So that is why, when I was asked by Chairman Wyden to name 
one idea that I would have for supporting the middle class, it 
is not a Finance Committee idea, but it is campaign finance 
reform.
    Senator Bennet. My time is up, but I want to thank you 
again, Mr. Chairman. I want to thank all the panelists today.
    If we do not figure out how to educate our kids better, and 
if we do not figure out how to recouple job growth and wage 
growth to economic growth, we are not going to recognize 
ourselves in the middle of the 21st century, and this is what 
we should be focused on 24/7.
    The Chairman. Thank you, Senator Bennet.
    Senator Thune is next. Senator Stabenow has been 
exceptionally patient, and I am looking forward to getting her 
in as soon as possible.
    Senator Thune. Thank you, Mr. Chairman. Thank you to you 
and Senator Hatch for covering and having a hearing on this 
important subject, and thanks to all our witnesses for being 
willing to testify today.
    I think we have two kind of contrasting views about how to 
improve the plight of middle-class Americans in this country. 
And over the past several years, we have sort of tried the 
government approach, the redistribute income approach, and what 
we got is sluggish growth, stagnant wages, and a middle class 
that feels increasingly squeezed by health care costs and taxes 
and everything else.
    The other approach, I think, looks at a vibrant, growing 
small business economy, where we incentivize work and really 
try to encourage small businesses to hire. Sixty percent of the 
jobs that are created in this country, I think--and I think the 
number may be even higher than that, but I know that that is 
the number that I have seen quite a bit--come from small 
businesses. So I would argue that the best thing that we can 
probably do in terms of improving the overall status and 
conditions for middle-class Americans in this country is to get 
a vibrant, growing, robust small business economy.
    And to Mr. Packer's point, if people feel disenfranchised 
from Washington and big government, feel disenfranchised from 
big business and Wall Street, in most cases, they do feel a 
connection to the small businesses in their community, and that 
is where most of the jobs are created. That is why I think the 
focus of our policies ought to be on that.
    And so I would ask Dr. Dunkelberg, because we are having a 
debate around here right now about the minimum wage and other 
types of policies that I think are intended to improve the 
plight of the middle class and to address the issue of income 
inequality, but I am interested in knowing if there might be 
some other types of policies, tax policies, that you can think 
of that would help small businesses grow and hire, maybe 
increasing small business expensing limits or expanding the use 
of cash accounting, those types of things that would be 
helpful, that would really encourage small businesses to hire 
and to grow and to get the economy expanding again.
    That really is ultimately, I think, the best way to lift 
people higher up in the middle class.
    Dr. Dunkelberg. Thank you, sir, for that question. I think 
you put your finger on a couple of interesting issues, all of 
them pointed to the bottom line. That is where small business 
funds its growth. That is the source of capital.
    So, whether it is a change in tax rates or expensing or any 
of these kinds of things, and, in particular, a reduction in 
the compliance costs that they have, with all the regulations 
that are coming out--I think I saw a statistic that said we had 
a new regulation in the Federal Register last year every hour 
and a half or something like that, some absurd number. I do not 
even know how small business owners find out what regulations 
they have to comply with, much less comply with them. It is 
very expensive.
    So this is the important capital, the owners' capital, the 
intelligence and the smarts of the entrepreneur, as well as the 
financial capital. Those are the kinds of things that should be 
fixed. Simplification, as a number of our testimonials have 
suggested, would be really important here.
    The other thing, of course, is that a lot of what Congress 
does for these things are temporary provisions. So it is not 
just complexity. A lot of our members do not use the investment 
tax credit, for example, because it is too complicated, or they 
will not use, say, some tax credit, like, we will give you 
$5,000 if you hire a worker. Well, the worker costs $25,000, 
and you get $5,000 after a lot of paperwork, later and maybe, 
and those kinds of temporary things do not help either.
    Small businesses are investing for the long run, and they 
need a set of policies that are long-run policies, that are 
simple and that they can understand and comply with and still 
spend most of their time running the business and creating jobs 
rather than trying to figure out how to comply with all these 
regulations that are coming down on their heads.
    Senator Thune. I appreciate that.
    Mr. Lindsey, there has been a good amount of discussion 
about the EITC. I think you were around when that was created 
during the Reagan administration. And it was designed, I think, 
to help reward hard work by offsetting some portion of payroll 
taxes.
    As someone who served on President Reagan's Council of 
Economic Advisors, I would be curious to know what you think 
about the EITC and whether it was intended to be primarily a 
spending program that makes payments, in many cases, above and 
beyond both income tax and payroll tax liability. And do we 
need to consider reforms to the EITC as opposed to an expansion 
of it, which is what the President is proposing?
    Dr. Lindsey. I think the EITC is a very good program, and I 
think--let us put it in a little historical context.
    It was intended as an alternative to an old program called 
AFDC, which was Aid to Families with Dependent Children, which 
basically put a 100-percent marginal tax rate on someone who 
was on welfare so he could return to work, and this actually 
reversed that. It was a very successful supply-side program and 
is now embraced by everyone.
    I really do not want to do you all's job here. So I am 
going to tell you the pros and cons and try and get out of here 
alive.
    I think the first decision you have to make is whether or 
not you want to stick to the basic premise that this was an 
alternative to AFDC; that the intent here was to help families 
with children who have unique problems and unique issues over 
and beyond those of childless individuals.
    I think that is a very important decision. I am probably in 
agreement with you on it, but that is not a decision for me to 
make. I think that is something you do not want in an age of 
scarce dollars.
    My preference would be to focus those scarce dollars on 
families with children. That would be where I would go. But I 
think that, first, the same decision, whether or not you extend 
it to childless individuals or not--and here is where Dr. 
Burman and I agreed--you can do it so much easier than you do 
it now. You really can, and that is where you want to go.
    There are a lot of people who do not get it who should, and 
there are a lot of people who do get it but should not, and 
that is also well-documented. Let us admit that there is fraud 
in the program, but there are also people who do not get it.
    Well, that has to do, let us be honest, with complexity. It 
is done in a very inefficient manner. So I do think that no 
matter what you do about expanding it and reaching out to 
childless couples, please, please, please, whatever you do, 
make it simpler.
    The Chairman. Thank you, Senator Thune.
    Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman. I want 
to thank you for your first hearing being on what is the most 
important issue today, which is whether or not we are going to 
have a middle class in this country, and I thank you very much 
for that.
    There are so many pieces to this. Ultimately, I think, in a 
broad economic picture, we do not have an economy, and we do 
not have a middle class, unless we make things and grow things. 
We need to focus on that in manufacturing, small business, all 
of the things being talked about.
    But I am concerned that not much of the discussion that 
seems to be happening today is focused on how we reverse cuts 
in job training. And the number-one thing I hear from 
manufacturers is, we are not matching up the right job right 
now with the right skills, and that means job training and 
education and so on.
    It is very much about somehow blaming people who are out of 
work, which, I have to say, coming from Michigan, boy, is not 
what I see. I do not see people--unfortunately, Dr. Lindsey, 
when you say people are choosing not to be self-reliant, that 
surely does not speak to anybody whom I know in Michigan.
    Dr. Burman, when you talk about the market not rewarding 
work, that is more what I see. And I want to just speak for a 
minute--when we have a minimum wage right now that allows 
people to work 40 hours a week and still be in poverty, there 
is something wrong with that, I think.
    And we have a bill on the floor right now, Mr. Chairman, 
that we all support, on child care.
    The Chairman. A bipartisan Mikulski-Burr bill.
    Senator Stabenow. Exactly. And what is interesting about 
that, though, is that the average child care costs for families 
today equal somebody working 40 hours a week for a year at 
minimum wage. It is basically the same: $14,000, $15,000.
    So I am very concerned about how we reward work and do not 
take away from someone who is 50 years old whose job went 
overseas or their plant closed down or we are more efficient 
and we do not need this type of work anymore, and they are out 
of work and they cannot afford to go back to school, to the 
community college, because they have no work, and we are not 
extending unemployment benefits so that they can go back and 
get job training and so on.
    I think my first question just would be, Dr. Burman, in 
your testimony, you said that income concentration has not 
arisen because the middle class is working less. The opposite 
is true.
    So is the average family working more or less? What is 
happening here? Is this people choosing not to work?
    Dr. Burman. If you look at the data over time, labor force 
participation overall is much higher. It is a little bit lower 
among men. It is much higher among women. There are many more 
2-earner couples than there used to be.
    So for the average household, I think it was something like 
20 percent more--in terms of labor force--hours in the 
workplace than there had been 20 or 30 years ago. Americans 
work really hard, and a lot of them are still struggling to get 
by.
    Senator Stabenow. Would you agree with what I hear so 
often? I do not know if you are seeing this, but I know an 
awful lot of folks who are trying to piece together two or 
three part-time jobs, and they are actually working a whole lot 
more, just not getting ahead very well. So I do not know how 
that factors into what you see, but we have a lot of folks 
working awfully hard.
    Mr. Packer, from your perspective, do you think folks just 
do not want to work, do not want to work as hard?
    Mr. Packer. The people I was with always seemed to be 
working or always seemed to be looking for work.
    There is a demoralizing effect when you are working part-
time because you cannot get a full-time job. Danny Hartzell 
wanted full-time work. He could not find it. All he could get 
was 35 hours a week at Target and Walmart, which then became 30 
and then became 25 and by the end was down to 20--$10,000 a 
year. It is just untenable. And he did, in his mind, go through 
the calculation. If I somehow lost this job, I could probably 
make more from unemployment and food stamps than I am making 
working in the produce department at Walmart.
    Then his daughter got sick and he had to go take her to a 
doctor's appointment. He did not call in, probably because he 
was pissed off at his employer, and he lost his job and did not 
get unemployment benefits because it was not found that the 
employer had laid him off.
    So there is a little gray area----
    Senator Stabenow. So it is a cycle.
    Mr. Packer. But, honestly, the cycle starts with a man who 
wants to work and cannot find a job that allows him to do 
anything more than allow his wife to pay $2.99 for six 
Salisbury steaks and cook them in the toaster oven or whatever. 
That is the level of life. And this is a family that worked, 
that worked all their lives and that has stayed together. They 
have not broken up and gone their separate ways and fought over 
the kids and started drinking and taking drugs.
    They have done the things that society asked them to do, 
and they still cannot really survive in our economy, and I 
think the effect has been, to some degree, a demoralization 
about whether there is a job out there for him.
    Senator Stabenow. Just very quickly, I know my time is up, 
but very quickly, what leads to that--and I want to say, again, 
we are never going to get out of debt with 10.5 million people 
out of work. This is about jobs, it is about the economy, it is 
about supporting small business, investing in innovation, 
manufacturing, job training, all of it. But we have people 
right now who are stuck here in this transition.
    Ms. Swonk, just very, very briefly, we are both from 
Michigan. You know how hard things have been there. We are 
coming back right now. But your testimony discusses some of the 
permanent damage caused by people who are on the sidelines for 
too long, which is a concern of mine--the long-term unemployed.
    I wonder if you might elaborate on that for just a moment.
    Ms. Swonk. Sure. There are plenty of labor force studies 
that have looked at long-term unemployment, most of them from 
the early 1980s, actually, in places like Pittsburgh. Chicago 
Fed Director of Research, Dan Sullivan, and, actually, Mary 
Daly at the San Francisco Fed, have done some of this as well.
    And I disagree with Larry a little bit on the permanence of 
unemployment, but I would argue that these problems compound 
over time. We know that for the long-term unemployed, 
particularly among men, not only is their earning potential--
when they finally do get back in, if they are out more than a 
year--permanently reduced, but the earning and educational 
attainment of their sons, in particular, is reduced. So you are 
generationally setting these people back, and they are from 
those manufacturing jobs like we had in Michigan with a 
controlled, unionized workforce.
    We do know that in the 1990s, they came out of the woodwork 
and came back, but they never earned what they did before. They 
were on a completely different trajectory.
    And we also know that mental health, physical health, which 
are both intimately combined, in my view, in my own experience 
with what I see, but also, the data now supports it, they are 
intricately combined, and things like mortality rates among the 
long-term unemployed went up quite dramatically as well.
    So there is a whole issue here that I think it is 
compounding. That said, we do know that in much better economic 
times, they do come back. They just never achieve what they 
once did.
    So I do not completely disagree that these workers are 
permanently sidelined, but some of them are people who have 
taken disability, very few ever come back, and they are younger 
than they used to be.
    Senator Stabenow. Thank you. And, Mr. Chairman, thank you 
for your patience.
    I think when we look at extending unemployment benefits so 
folks have a roof over their head and food on the table and can 
go back and get the job training they need so that they can 
lift themselves up, that is all a very, very important part of 
this, and we need to get unemployment insurance extended so 
more people have the opportunity to be able to focus on getting 
themselves back on track.
    The Chairman. Thank you, Senator Stabenow. And before 
Senator Stabenow leaves, I am pretty sure I heard you mention 
the words, Ms. Swonk, mental health.
    Ms. Swonk. Yes.
    The Chairman. And Senator Stabenow and a Republican 
colleague, Senator Blunt of Missouri, are the champions of the 
effort to expand mental health coverage, and I am very hopeful 
that we are going to be able to do that here very shortly. And 
our farm bill is also going to be helpful in terms of creating 
some of the agriculture jobs of the future, the jobs that are 
going to get our agricultural products into export markets.
    So before she leaves, I just want to thank her for her 
leadership.
    I have a couple of other questions, and I know my 
colleague, Senator Hatch, does as well.
    I want to ask the panel a question on this issue of savings 
accounts and particularly child savings accounts.
    There seems to be more agreement than might initially meet 
the eye. I have looked at some of the statements, for example, 
that our former colleague, Rick Santorum, has made on this 
issue, and Senator Santorum makes the point that he is 
sympathetic to child savings accounts because he sees them as 
part of an ownership society. Many of my Democratic colleagues 
support the idea of a child savings account because they would 
like to increase the tools for those with modest incomes to be 
able to accumulate wealth.
    So my question for the panel would be, what, in your view, 
might be an appropriate role for government? And Senator Hatch 
and I already have begun discussing a lot of these issues, and, 
when we talk, the question always comes back to, what is the 
appropriate role of government? In some instances, on some 
issues, there simply is not an appropriate role for government.
    But given the fact that conservatives and those who have a 
different place on the political spectrum seem now to be coming 
together around the idea of child savings accounts--making it 
possible for young people to accumulate wealth--I would be 
interested in whether the panel--and I am not going to 
conscript you into duty here, but what might be an appropriate 
role for the government on child savings accounts?
    Would any of you like to take a crack at that?
    Dr. Burman, you are moving cautiously toward your 
microphone.
    Dr. Burman. The concern I have about child savings accounts 
is the idea that you just put a little bit of money in an 
account and then somehow people will get to be 18 years old and 
they will have a nest egg and that will give them a chance.
    They, obviously, need to know how to manage the money, but 
I think it is a promising idea. What I would look for would be 
ways to actually teach people when they are quite young about 
the value of savings and not just put money in the account and 
say, read the statement and see how it grows but, also, 
encouraging them and maybe their parents to contribute, provide 
them with the kinds of match that upper-income people can get 
through their employers now, and then see how the account 
balance grows.
    I think, actually, people want to save. My parents were 
quite poor, and my mother still would hide money and put it 
away, because she wanted to have something set aside. But we 
need to make it easier for people to do that.
    The Chairman. You are absolutely right. There are a number 
of pieces to the puzzle, and that is why the committee is going 
to look at this. We are going to look at it in a bipartisan 
way. There is not going to be any kind of rush to address it.
    But I am struck by the numbers, that young people who have 
a savings account are more likely by many times the ratio to 
those who would not attend college, they would move on. They 
clearly benefit, and the financial education you are talking 
about is a key part of it and particularly for those of modest 
means.
    Any of the rest of you--Dr. Dunkelberg? And so the question 
is really the appropriate role of government, and if you think 
I am just off-base and you do not think there is any role for 
government at all, so be it. But that, to me, would be the 
initial question in terms of trying to see how Democrats and 
Republicans might come together behind it.
    Dr. Dunkelberg. Well, it could be a Federal-level issue, 
although lots of times we are doing things at the Federal level 
that we probably should leave to the States.
    The American Financial Services Association has developed a 
program called Money Skill. It makes it available free to high 
schools. It is totally self-contained, because high schools 
have a lot of people who do not know how to teach personal 
finance.
    But the States are requiring it. They are starting to ask 
for it. And Money Skill is made available, and, as I say, it is 
a self-
contained, self-teaching kind of an instrument. But the kids in 
high school need to get this kind of an education to see what 
saving means and what it means over time and why you want to 
save. All they think about is, I want to spend.
    I think there are good efforts underway, and anything we 
could do to encourage that would, I think, be very, very 
helpful, because once these kids get through this stuff and go 
through all the examples and the work, it is amazing what they 
learn and how much retention they have once they get out.
    And that is a good time, I guess, when you graduate from 
high school, you are going to get your first job, maybe, to 
have had those skills pounded into your head.
    The Chairman. Ms. Swonk, did you want to get into this?
    Ms. Swonk. I just wanted to add one point of caution, as 
the cautionary tale here of complexity, agreeing that we all 
believe in simplification.
    One of the things we saw during the 1990s--and I remember 
reading these studies and being quite moved by them--was that 
people who owned a home had a higher chance of people living in 
that house going to college, lower rates of high school 
dropouts, and higher rates of high school attainment.
    The problem was, we ignored self-selection in the process. 
And what I worry about is, when we look at these students who 
have already saved--I had my first savings account at 5 years 
old. I had a little book. We had a savings book back then. But 
there is a self-selection involved among the family and among 
the children. And so, when we try to expand those ideas to a 
Federal level, we have seen already some dangers of unintended 
consequences by well-
intended policies, despite the bipartisan nature of it.
    And so I would just point that out as something to be 
cautious of.
    I also think dispelling myths is really important, and I am 
going to really get on a third rail of politics here, and I 
probably should not. My colleagues at home are probably getting 
angry already that I opened my mouth, but people believe that 
they are getting back in Social Security what they earned, and 
they do not believe--my grandmother died at 99, thankfully, and 
she took back more than she ever could have earned in the stock 
market or anything else, and that was lovely for her.
    But I think more people realize that they have to support 
themselves, as well as depending on these safety nets that we 
set up for a very small percentage of people initially. I think 
that is an educational issue for 28-year-olds and 25-year-olds, 
realizing they are going to have to support themselves, not 
because they might not get Social Security, but because it is 
not enough.
    I think those issues are really important, because we have 
to dispel some myths. People think of these things in a 
different way than they were intended to be, and they were not 
designed to support it.
    The Chairman. Your point is well-taken. And I think part of 
what I try to bring up at practically every town hall meeting 
is that I want to promote this ethic of private saving, 
particularly as it relates to Social Security, on top of Social 
Security, so that people do not walk out of there and 
immediately say, there is going to be a big brawl.
    My time has expired. The point is, we are going to be 
anxious to talk with you all about the details on this, because 
of your point about self-selection and analysis, particularly 
in one area or another that may or may not be comparable for 
young people.
    I have been struck, and we will get them to you, about the 
data that show that this does look like a path to upward 
mobility, particularly for those youngsters of the modest means 
that I am talking about.
    Senator Hatch has been very patient.
    Senator Hatch, do you have other questions?
    Oh, let us see. We have our colleague, who may be out of 
breath. Senator Carper, would you like Senator Hatch to go and 
then you, or would you like to go now, because Senator Hatch, 
as usual, is being his collegial self?
    Senator Carper. I would like for Senator Hatch to go, and I 
thank you very much for the offer.
    I just would say to all the witnesses, thanks very much. 
Welcome. Thanks for waiting for me.
    The Chairman. Let us have Senator Hatch ask any questions 
he would like on another round, and then we will go to Senator 
Carper.
    Senator Hatch. I just have to say, this has been a very 
interesting panel. I have to read your book, Mr. Packer, and I 
will try to do that.
    Mr. Packer. Thank you. I have read yours.
    Senator Hatch. You have?
    Mr. Packer. ``Square Peg in a Round Hole.'' Yes, I have.
    Senator Hatch. You did read that.
    Mr. Packer. I did. Why are you so surprised?
    Senator Hatch. I have been surprised at anybody who read my 
book recently. Although, it actually sold quite a few books.
    That reminds me, it is hard for me to understand why 
anybody would not want to work. And to hear you, Dr. Lindsey, 
explain why they do not want to work, even then, it is hard for 
me to understand, although I understand what you are saying, 
because I was born in poverty.
    My family lost our home right after my birth. I always felt 
like I was responsible for that. And then my father borrowed 
$100 and bought an acre of land in the hills of Pittsburgh and 
tore down a burned-out building to build our home. We did not 
have any indoor facilities or anything.
    And from the time I was 6 years old, I was working. My dad 
did teach me his trade. I became a skilled tradesman. I was a 
member of the AFL-CIO for 10 years and worked at the trade. To 
get through school, I worked as a janitor. When Ted Kennedy 
found out that I had worked as a janitor, he said, ``Orrin, you 
should have stuck with it.'' [Laughter.]
    I will not tell you what I told him he should have stuck 
with. [Laughter.] We were good enough friends, we could really 
badger each other.
    But it is hard for me to get this concept of why people 
would not work at anything.
    Now, in your book, Mr. Packer, you have indicated that they 
cannot get anything. But I have always found you can if you 
move or if you have to.
    How do we get out of this mentality? You can hardly blame 
people for not working when, with the transfer of payment 
systems that we have in this government today and the welfare 
payments that we have, people can make, in some States, upwards 
of $55,000 a year, which is a little bit more than the average 
wage, by staying home and just getting the transfer payments.
    Am I wrong on that? I mean, I have been reading about that, 
and I get that from all sources. I am happy to have any of you 
talk about that.
    Let me direct it to you, Dr. Lindsey. You made the point.
    Dr. Lindsey. Yes, Senator. And I think we----
    Senator Hatch. Why can we not get people to work?
    Dr. Lindsey. Senator Stabenow said that I said something 
that I do not think I said, and I think it is a way of 
answering your question. She said that I said people choose not 
to be self-reliant.
    I do not think anyone chooses not to be self-reliant.
    Senator Hatch. I do not either. That is one of the points I 
am making.
    Dr. Lindsey. And what happens is, they lose their job, and 
they get into one of these programs. That program leads to 
another program and----
    Senator Hatch. Or a whole bunch of programs.
    Dr. Lindsey [continuing]. They need the program. It is that 
benefit mountain chart.
    There is nothing wrong with any of these programs if they 
need the help. But then comes the time when maybe a job does 
come along, and what they either get from personal experience 
or from their social network--it may be that their sister-in-
law tried this.
    She says, ``You know, I got a $15-an-hour job, and I 
thought I would be a lot better off, and I took home $3 more. I 
was better off by $3 more.'' It is not that they are choosing 
not to be self-
reliant. It is that it does not make sense for them to be self-
reliant.
    Senator Hatch. Well, how do we solve that problem? That is 
what I am getting to.
    Dr. Lindsey. Again, we are going to have to balance the 
generosity, and I think we are a generous Nation, and I am all 
for it, with the complexity and with the phase-outs.
    The fact is, people are not going to go back to work when 
they face 80-percent marginal tax rates. It is not because they 
do not want to be self-reliant. It is that even a self-reliant 
person is smart. They know whether or not they are better off 
if they go back to work. And, if the government says you are 
not better off if you go back to work, they are not going to go 
back to work.
    Senator Hatch. How do we solve the problem? Take away the 
transfer payments? How do we do it?
    Dr. Lindsey. Dr. Burman was mentioning reforming EITC as 
one example. These are soluble problems.
    With all respect to this body, I think what happens, and 
the reason we have a chart that looks like this, with a 
mountain there, is, we pass a program and then we have a 
different Congress that comes along and somebody else wants 
their name on a bill and we put that program on top of that 
program and that program on top of that program, and they are 
all well-intended, but because there is never an effort to go 
back and really think through what we are doing, to think about 
the consequences, we build up a situation where you have 80-
percent marginal tax rates.
    Senator, if I may just give one other example that just 
puzzles me--and this is from the implementation of ACA. We have 
mental health programs in the country, and I do not disagree 
they could be made more generous. We have rehabilitation 
programs. We have programs for habilitation. They are paid for 
out of general taxation, which is progressive.
    One of the things Secretary Sebelius did was to put all 
three of those programs into a mandate for insurance. Now, what 
she has done by doing so is take programs that are financed by 
progressive taxation and turn them into programs that are 
financed by lump-sum taxation of the middle class.
    If I were thinking simply about a way to hurt the middle 
class--this is 20 percent, by the way, of the cost of a silver 
plan premium. Why on earth would the administration, if it is 
interested in helping the middle class, move 20 percent of 
health care costs from progressive taxation to lump-sum 
taxation?
    I have asked that question of everyone, and this is, again, 
an unintended consequence. The answer I get is, ``Well, it got 
it off her budget and onto the insurance budget.''
    I do not know what else there is. We have to work smarter 
in Washington.
    I am sorry I am talking too long.
    The public is fine. Dr. Dunkelberg's members are very smart 
people. They know how to run their lives. The people in Mr. 
Packer's books are very smart people. They are able to run 
their lives despite very difficult circumstances.
    The people who are not being smart are the people here in 
Washington, and I will include myself in that, in how we design 
the programs that they have to live under. And we have to get 
smarter here. We have to get more efficient. It is not more or 
less. It is, come on, guys, there is plenty of money out there, 
let us deliver it in a way that is much more efficient.
    Senator Hatch. And we are going to need all of your help.
    The Chairman. Thank you, Senator Hatch.
    I know we have a vote going on. We want to get Senator 
Carper in before the vote.
    Senator Carper?
    Senator Carper. Thank you very much, Mr. Chairman.
    Again, our thanks to each of you.
    I chair the Senate Committee on Homeland Security and 
Governmental Affairs. We just had a budget hearing with our new 
Secretary, Secretary Jeh Johnson. We just concluded that. So I 
have missed most of this hearing, and I apologize.
    I want to share a thought and then maybe ask for a 
response, maybe from Dr. Burman on this.
    On the Affordable Care Act, let me just say as a preamble 
here, for years, we spent more money for health care than a lot 
of the rest of the world, industrial nations; we spent way more 
money.
    I like to talk about Japan. I spent some time there when I 
was in the Navy. They spend about 8 percent of GDP. Up until a 
year ago, we spent about 18 percent. It actually came down a 
little bit last year, and we have seen a sort of leveling off 
and a slowing of growth in health care costs.
    But my view is, if we want to make sure that people have 
some money for their incomes and in their paychecks, we have to 
continue to bend the cost curve, make sure that we get better 
health care results for the same amount of money or less money.
    The Affordable Care Act is not the answer, the be-all in 
terms of actually getting there. There are a lot of things that 
can be done. But among, I think, the good ideas in the 
Affordable Care Act, one is moving away from a sick care system 
to a healthy care system to try to encourage people to take 
better care of themselves and incentivize that behavior.
    I think it is moving toward Accountable Care Organizations, 
which is really cooperative care, collaborative care 
organizations--another good idea. Incentivizing people to lose 
weight, to stop smoking, that kind of thing, that is a good 
idea. Moving toward electronic health records, so we can better 
coordinate the delivery of health care, is a good idea. I think 
the exchanges, large purchasing pools, the Republican 
alternative to Hillarycare in 1993-1994, I think that is a good 
idea.
    The idea that came out of Massachusetts--thank you, 
Governor Romney--where we have an independent mandate to make 
sure that we had an insurance pool that was not just the sick, 
but we had some healthy people there too, I think that is a 
good idea, although those ideas are criticized by many.
    But let me just ask, if we want to make sure, at the end of 
the day, that employers do have some money to pay more money in 
wages to folks, trying to maintain the middle class, what are 
some further things that we need to do, can do, in terms of 
stuff that can be done outside of the Affordable Care Act?
    Dr. Burman, just share some thoughts with us, if you would.
    Dr. Burman. Thank you for your question. I am not an expert 
on health care, although I have written a fair amount about the 
tax aspects of health.
    One thing that clearly would be worthwhile would be to do 
more kind of cost-benefit analyses of health care procedures. 
We spend an enormous amount of money on procedures that do not 
even necessarily make people better off. People get old and 
sick, and doctors think, ``Well, we'll spend $1 million to keep 
you alive for another 6 months and probably make your life a 
living hell while we are poking and prodding and medicating 
you.''
    One of the aspects of the Affordable Care Act was setting 
up--I do not remember exactly what it was called, but there was 
an agency that was going to look at the effectiveness of 
different kinds of procedures. And because of the demagoguery 
around the whole idea of death panels, it said, ``Okay, we are 
going to look at whether things work, whether they are cost-
effective, but this will in no way affect anything we do in 
terms of providing medical care.'' I think you should take out 
that last part.
    If you are paying for care--we do not have an unlimited 
amount of money to pay for health care, and you should be 
making rational cost-benefit decisions. I think for people at 
the ends of their lives, we probably spend too little money 
keeping them comfortable. A lot of people are in really 
horrible nursing home situations, and we spend way too much 
money on acute care.
    So there are a lot of things we can do, but it has to be 
done on a bipartisan basis, because it is so easy to demagogue 
the issue. I think both sides have done that.
    Senator Carper. I think living wills or health care 
directives--I have one for myself. I go to a doctor. That 
doctor may be aware of my directive. If I go to a hospital, an 
acute care hospital, they may not be. If I go to a nursing 
home, they may not be.
    So it does not travel; it does not migrate. And one of the 
things that Senator Grassley and I are working on is an effort 
to make sure that that directive, my wishes, actually goes with 
me to where I am receiving the health care.
    The other thing I want to say is on defensive medicine. One 
of the things we did on defensive medicine--in Naval aviation, 
we used to call it watching our 6 o'clock, who is coming up 
behind us to shoot us down.
    And in the delivery of health care, doctors, hospitals, 
nurses, they are worried about somebody coming up and suing 
them. And so they order more tests, more visits, more MRIs, 
more everything, in order to cover their 6 o'clock, to ensure 
that when they are sued, they can say, ``Look, I did everything 
I could have done.''
    There are actually some very exciting alternatives that are 
out there. One actually came out of the University of Michigan, 
``Sorry Works.'' In a place called Illinois, there is some 
great work going on. They took ``Sorry Works'' and put it on 
steroids to actually do an even more interesting job in 
reducing the incidents of defensive medicine.
    They realized better health care results, fewer lawsuits, 
and greater patient satisfaction. It is like the trifecta. It 
is something to keep our eye on. I think we are going to try to 
spread it across the country, including in the first State of 
Delaware.
    Thank you so much.
    The Chairman. Thank you, Senator Carper.
    Senator Hatch and I want to thank all of you as well. And I 
am just going to wrap up with a quick minute.
    For the record, Ms. Swonk, we are going to ask you to 
expand a little bit on your notion about less traditional kinds 
of education. You talked about apprenticeships, and that is 
very good.
    The only other point I would make, really, I think, sums up 
what you all had to say. We talked a bit ago, 2 hours ago, 
about Henry Ford, and Henry Ford said, in effect, we are all in 
it together. And today, you have something of a Dollar Tree-
Neiman Marcus economy, where you have the bargain stores and 
the high-end stores doing well.
    We have to find a way to come together in a bipartisan 
fashion to give all Americans the opportunity to get ahead. I 
am going to be working very closely with my partner on this, 
Senator Hatch, and all our colleagues.
    Thank you all. This has been a terrific way to begin my 
service on the Finance Committee.
    With that, the Finance Committee is adjourned.
    [Whereupon, at 12:24 p.m., the hearing was concluded.]




















                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                             [all]

</pre></body></html>
